<html>
<title> - D.C. PUBLIC SCHOOLS: TAKING STOCK OF EDUCATION REFORM</title>
<body><pre>[Senate Hearing 111-359]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-359
 
         D.C. PUBLIC SCHOOLS: TAKING STOCK OF EDUCATION REFORM

=======================================================================



                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
53-115                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           ROBERT F. BENNETT, Utah
MICHAEL F. BENNET, Colorado

        Lisa M. Powell, Chief Counsel and Acting Staff Director
                       Christine S. Khim, Counsel
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                   Benjamin B. Rhodeside, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2
    Senator Burris...............................................    14
    Senator Landrieu.............................................    14

                               WITNESSES
                        Thursday, July 23, 2009

Michelle Rhee, Chancellor, D.C. Public Schools...................     5
Victor Reinoso, Deputy Mayor for Education, District of Columbia.     8
Kerri L. Briggs, Ph.D., Acting State Superintendent of Education, 
  District of Columbia...........................................    10
Cornelia M. Ashby, Director of Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................    12

                     Alphabetical List of Witnesses

Ashby, Cornelia M.:
    Testimony....................................................    12
    Prepared statement...........................................    66
Briggs, Kerri L., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    58
Reinoso, Victor:
    Testimony....................................................     8
    Prepared statement...........................................    51
Rhee, Michelle:
    Testimony....................................................     5
    Prepared statement...........................................    41

                                APPENDIX

District of Columbia Public Schools, Important Steps Taken to 
  Continue Reform Efforts, But Enhanced Planning Could Improve 
  Implementation and Sustainability, June 2009, GAO Report GAO-
  09-619.........................................................    81
Background.......................................................   131
Questions and Responses to questions:
    Ms. Rhee.....................................................   139
    Ms. Briggs...................................................   146
    Ms. Ashby....................................................   148
    Get-backs from Ms. Briggs....................................   151


         D.C. PUBLIC SCHOOLS: TAKING STOCK OF EDUCATION REFORM

                              ----------                              


                        THURSDAY, JULY 23, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Landrieu, Burris, Voinovich, and 
Ensign.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. Good 
afternoon and welcome. Thank you for joining us today as this 
Subcommittee continues our examination of reforms in the 
District of Columbia Public School (DCPS) system.
    As many of you know before being elected to Congress, I was 
in education, so I care deeply about providing high-quality 
education for all of our children. I also appreciate the 
challenges facing any educational system and the hard work it 
takes to initiate and monitor reforms.
    I know you all have been working hard for the past 2 years 
to implement far-reaching reforms in the D.C. school system. 
There is much left to do, but I understand that change does not 
happen overnight. I want to commend you very much on your 
efforts and achievements so far. In the first year of reforms, 
elementary and secondary school students in DCPS saw between an 
8- and 11-point increase in their math and reading scores on 
the District's annual Comprehensive Assessment System (CAS) 
exam. Recently released CAS scores for the 2008-2009 school 
year show continued improvements in math and reading scores for 
elementary and secondary schools in the District.
    I commend DCPS for working to bolster the quality of its 
workforce by investing in its teachers and principals. DCPS is 
offering coaching to new and struggling teachers and providing 
workshops and instruction for principals. Additionally, DCPS is 
instituting individual performance evaluations for DCPS 
employees at all levels.
    While these improvements are encouraging, problems persist. 
Despite widespread school restructuring efforts, the 2008-2009 
CAS scores show a 4-percent decrease in the number of schools 
achieving adequate yearly progress (AYP) under the No Child 
Left Behind Act. D.C. also continues to find itself on the 
Department of Education's high-risk list because of poor 
Federal grant management.
    Given the challenges and pressing need to reform the 
District's schools, Senator Voinovich and I asked the 
Government Accountability Office (GAO) to conduct a short-term 
and long-term review of D.C.'s education initiatives and to 
make recommendations for improvements.
    Last year, this Subcommittee held a hearing to examine the 
results of GAO's short-term study. We learned about efforts to 
improve student achievement and DCPS's physical infrastructure, 
as well as a number of other initiatives that were just 
beginning to take root.
    Today, we will hear the results of GAO's long-term study, 
which focused on the District's efforts to improve academic 
achievement, strengthen the quality of teachers and principals, 
develop long-term plans, and improve accountability and 
performance throughout DCPS.
    GAO has two primary recommendations for D.C. to ensure the 
effectiveness of education reforms and build upon past efforts. 
The first is to increase institutional and community 
stakeholder involvement in education policy planning. I agree 
that systematic stakeholder involvement is important; it adds 
valuable input for shaping the reforms and encourages 
community-wide commitment to progress.
    GAO's second recommendation is to link individual 
performance evaluations to DCPS's strategic goals and 
initiatives. This is recommended not only for teachers, but 
also for central office employees. Linking individual 
performance to DCPS's goals will strengthen accountability and 
align employee performance with the agency's mission.
    We are 2 years into the reform, and there is no less 
urgency to improve DCPS. Great strides have been made, but we 
have a long way yet to go. The 2009-2010 school year will soon 
get underway, and expectations of parents, teachers, the 
community, and, most importantly, the children are high.
    I hope today we can gain a better understanding of the 
progress made, the challenges ahead, and the steps D.C. is 
taking to overcome those challenges.
    I now turn to my good friend Senator Voinovich, who has 
many years of experience working on education issues, not only 
during his time in the Senate but also as Mayor of Cleveland 
and Governor of Ohio.
    Senator Voinovich, will you please go ahead with your 
statement?

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I want to 
thank you for holding this hearing and having an opportunity to 
evaluate the District's education reform since 2007. I have a 
sincere interest in improving education in the District because 
of my belief that a world-class education is the best way to 
help every citizen make the best use of his or her God-given 
talents.
    Chancellor Rhee, let me congratulate you on the progress 
that you have made. Senator Akaka said that the District 
students continue to improve their reading and math skills 
based on standardized tests, and I know it is not easy. I have 
been working with the Cleveland public school system since my 
days in the State legislature, and I will mention that later, 
but it is tough.
    I think most people are amazed that the District is one of 
our Nation's most expensive urban school systems, although I 
think we know the cost of living is a little higher here than 
it is in other places in the country. And I think most of 
Congress was a little bit disappointed from GAO's report that 
the District continues to be on the Department of Education's 
high-risk list for its management of Federal education grants. 
And I understand that there is $148 million that was allocated 
in stimulus funds, and I would be interested in knowing what 
the District is going to do with that money and, if they are 
going to use it for capital improvements, how they intend to 
prioritize those and get it done.
    I am interested in it because when I was governor, we 
undertook a program to rebuild all of our schools in the States 
and really put in place an entity that worked with the school 
districts to make sure that the thing was done properly. And so 
far, it is a program that has worked out very well without any 
scandal about contracts or anything else. But if you are going 
to be doing that, I would be real interested in hearing from 
you about it.
    I have to say that I am troubled that Mayor Fenty declined 
the Subcommittee's invitation to testify, although I know he is 
very busy. I think that prior to the reform, Mayor Fenty said, 
``We have a crisis on our hands, and I am asking today for that 
responsibility of education reform to be placed squarely on my 
shoulders.'' And I had hoped that Mayor Fenty would be here 
today to testify.
    As Mayor of Cleveland, I was very proud of the fact that 
Cleveland received three All America City Awards within a 5-
year period. It never happened before, and it never has 
happened since. But I emphasized over and over again that the 
city could not be an All America City until we had an All 
America school system. And as I mentioned, we are still not 
there yet. And it seems to me that the District ought to be a 
model for the rest of the Nation. It should be that shining 
city on the hill, and people should come to the District and be 
able to see some of those innovative things happening in 
America and be the model for the rest of the country. And we 
have got a long way to go.
    I would also like to mention the fact that--and Senator 
Akaka and I, I think, probably have a difference of opinion on 
this, but the scholarship program that we had here--and I know 
the President has recommended that you continue to fund it. But 
for the life of me, I cannot understand why that program can 
not continue for 1,700 children, and it is half the cost of the 
District, and the money that the kids would be getting, the 
District gets, so they are making out on the deal. And the 
reason I say that to you, all of you, is that this program 
started in Ohio in about 1995. This whole non-public school 
program started in Ohio, and I was told by the teachers' union 
that it was unconstitutional and so on and so forth. And 
several years ago, the Supreme Court said that it was 
constitutional. The program can provide the kids an opportunity 
to get money to go to a non-public school. And today we have 
5,600 kids in the school.
    And I have to tell you, if you go back, their dropout rate 
is--I mean, relatively no dropout rate. About 90 percent of 
them have gone on to college, and so many of them now that I 
meet, they say, Senator, without that program I do not know 
where I would be today. And certainly I would like to see that 
available to everyone, and so I am sure that you would like to 
see that.
    But I think that for the money put into it and the 
opportunity for those children and also the opportunity for 
some competitiveness is something that is very important. It is 
a benchmark. And I know it is not perfect, but I certainly 
would not want to snuff it out before it is given an 
opportunity to show what it can or cannot do.
    The other thing that Senator Akaka and I have done, and 
that I really feel proud of, the D.C. Tuition Assistance Grant 
(TAG) program. I do not know about you, but it is one of the 
things that I am most proud of since I have been in the Senate. 
And I do not think many people are aware of the fact that I 
think you have increased your college attendance in the 
District by over 50 percent as a result of the program because 
a lot of our youngsters here just did not have the opportunity 
to go on to college because of the financial situation. And 
then I think Don Graham coming up with the College Assistance 
Program--and I have been to just about every graduation, and it 
is really heart-warming to see the kids talk about the 
opportunities that they have and where they are going, and so 
on. It is inspirational. And I would hope that we can see that 
program continue and see improvements in the District.
    So I want to thank you, Mr. Chairman, for calling this 
hearing, and I am anxious to hear from our witnesses here 
today.
    Senator Akaka. Thank you very much, Senator Voinovich. And 
now I would like to introduce our witnesses: Michelle Rhee, 
Chancellor of the D.C. Public Schools; Victor Reinoso, Deputy 
Mayor for Education; Kerri Briggs, Acting State Superintendent 
of Education, and Cornelia Ashby, Director of Education, 
Workforce, and Income Security at the Government Accountability 
Office.
    As you know, it is the custom of our Subcommittee to swear 
in witnesses. Therefore, I ask all of you to please rise and 
raise your right hand. Do you solemnly swear that the testimony 
you are about to give the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Ms. Rhee. I do.
    Mr. Reinoso. I do.
    Ms. Briggs. I do.
    Ms. Ashby. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we begin, I want to let you know that although your 
oral statement is limited to 5 minutes, your full written 
statements will be included in the record.
    Chancellor Rhee, will you please begin with your statement?

TESTIMONY OF MICHELLE RHEE,\1\ CHANCELLOR, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Ms. Rhee. Good afternoon, Chairman Akaka and Ranking Member 
Voinovich. I am honored to testify today about education reform 
in the District of Columbia Public Schools and the findings of 
the GAO report.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rhee appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    In our Nation's capital, our education system can and 
should be a source of national pride. We know from the 
significant progress students have made in the last 2 years in 
D.C.--and from the results from high-performing urban schools 
across the country--that in good schools children of all 
backgrounds and circumstances can gain the skills that will 
allow them positive and fulfilling life choices. Urban schools 
can send their children to college at rates that can compete 
with suburban schools.
    We also know how much work it will take to get there. 
Despite the progress of the past 2 years, the situation remains 
dire when less than half of our students can read, write, and 
do math at grade level. When Mayor Fenty gave me the privilege 
of reforming the school system to achieve this goal with him, 
we quickly discovered a few of the ways that schools were not 
supported to educate their students competitively.
    For example, in 2007 brand-new textbooks sat unopened in 
warehouses while students sat in history classes with books 
that ended with Nixon's Presidency. The school system, owing 
money to teachers who had worked here years ago, at the same 
time was accidently mailing checks to former employees who had 
not worked here for years--even when the employees were 
regularly calling to correct the problem. While one DCPS school 
showed 9 percent of its students were on grade level in 
mathematics, a successful charter school only a few blocks away 
showed 91 percent of its students were on grade level.
    Parents responded, and between 1996 and 2007 the enrollment 
of the public school system dropped by about 40 percent as 
families without viable options in their neighborhood schools 
sought schools that would serve their children according to 
their rights and abilities.
    Because of the sheer size of the problem, many thought it 
would be near impossible to resuscitate DCPS, never mind take 
student achievement beyond the high expectations we have for 
children in our country's top schools. However, after decades 
of poor achievement, under the leadership of Mayor Adrian Fenty 
we are applying the innovative solutions and common-sense 
practices that are beginning to turn the tide.
    For the second year in a row, DCPS students have posted 
significant gains on our annual standardized test, the DC CAS. 
Second-year gains are more unusual than a first-year rise in 
scores, and we are pleased that in 2009 our principals and 
teachers brought gains across all grade levels and in both 
reading and math.
    Our elementary students made significant gains in math and 
reading this year, moving from 40-percent proficiency in math 
last year to 49 percent this year, and from 46 percent 
proficiency in reading to 49 percent this year--on top of the 
encouraging gains achieved in year one. Our secondary students 
showed improvement as well this year, advancing from 39 to 41-
percent proficiency in reading and 36 to 40-percent proficiency 
in math.
    I have heard from many who argue that economically 
disadvantaged students are not as capable of learning as 
students from more affluent families, and that it is only 
``realistic'' to assume that neighborhoods dominated by poor 
and minority students will remain caught in the cycles of 
poverty we see now. I am happy to see that our students have an 
answer for that.
    In just 2 years in secondary math, students have narrowed 
the achievement gap that exists between white students and 
students of color by 20 percentage points, from 70 percent to 
50 percent. The gap has narrowed across all grade levels and 
subject areas, and our students have made it clear that they 
intend to keep going. In fact, virtually every subgroup of 
students increased proficiency rates this year, including our 
students with special education needs, our English language 
learner (ELL) population, and our economically disadvantaged 
students. ELL students are outperforming the District as a 
whole in elementary reading, elementary math, and secondary 
math, with 20-percent gains in secondary reading over 2 years.
    When we began this effort, when Mayor Fenty took over the 
schools, only one-third of our students were on grade level in 
reading and mathematics. Two years later, almost half of our 
students are on grade level in reading and math. Of course, the 
fact that only half our students are proficient is not a cause 
for celebration. But given where we once were, this is evidence 
of progress and a cause for hope.
    The GAO report released last month represents the 
conclusion of nearly 2 years of ongoing evaluation and 
analysis. Overall, we agreed with many of the major 
recommendations from the draft report, though we have not seen 
the final report. As we have shared with the GAO team, the 
Mayor will continue to make constant evaluation and stakeholder 
input central and integral components of ensuring 
accountability under the governance structure.
    We were somewhat perplexed, however, by the tone and 
specific conclusions of the GAO report, and we believe the 
report fell short of objectively conveying the context for the 
DCPS initiatives underway and of adequately capturing all of 
the progress that has been made to date. I would like to use my 
remaining time to explain some of the innovative reforms 
occurring at DCPS that have allowed us to make the gains we 
have seen in student achievement.
    The rise in academic achievement over the last 2 years is 
in large part the result of months of hard work and dedication 
from our teachers and principals, and we still have a long way 
to go. There is no way to get around it. Without high-quality 
teachers and principals at every DCPS school, the achievement 
gap will not close and performance will not rise. We must 
support a teaching corps that is focused on student 
achievement, and we must recognize and reward them when they 
accomplish the enormous gains we are asking them to reach with 
students.
    For many years, new teachers have struggled to ``reinvent 
the wheel'' of classroom management and planning without 
significant or sustained support from DCPS. But just as 
teachers are asked to meet every individual child's academic 
needs, professional development must support teachers at all 
ends of the spectrum on their way toward mastery.
    DCPS has established a higher commitment to professional 
development with a 400-percent increase in budgeted 
professional development resources for teachers. This has 
allowed us to hire teacher coaches to support reading and math 
instruction. The coaches work at the school level, getting to 
know teachers and their styles and practice to help new and 
struggling teachers advance their students' academic growth.
    Building teacher capacity for excellence is the most 
important work of the past 2 years and the years to come. 
Nothing is more telling of this importance than the way 
students flock to our best teachers. In one of our high schools 
last year, a teacher was surprised to find students attending 
her class who were not on her roster. When she asked them why 
they were there, they said that they were learning from her, 
and that they wanted to attend her class whether or not they 
were getting credit for it.
    Schools also need strong principals to succeed. In a 
district facing a challenge of this size, we need the best 
school leaders we can find, and we must support those we have 
to achieve according to their highest potential. As part of our 
aggressive human capital strategy, DCPS recruited over 49 
proven instructional leaders for the 2008-2009 school year to 
replace principals who were unable to increase student 
achievement. Our new principals went on to outperform the 
District on the DC CAS this year. One of the new principals, 
Dwan Jordon, assumed leadership last year of Sousa Middle 
School in Ward 7, one of the city's highest poverty wards. In 
just 1 year, he galvanized his staff to move student 
achievement up 17 points in reading and 25 points in 
mathematics, allowing the school to meet AYP for the first time 
in Sousa's history.
    When we hire or develop staff to achieve such results, our 
children cannot afford to lose them. To attract and retain 
highly effective staff we must dramatically change the way in 
which teachers and principals are compensated. Already, DCPS 
has provided incentives to teachers who helped their students 
realize school-wide gains of 20 percentage points or greater in 
both reading and math. And after the 2007-2008 school year, 
DCPS awarded cash bonuses to the staff at these seven schools. 
Teachers at these schools received an $8,000 cash award, 
sending a clear message that if they perform at the highest 
level, they will be recognized and rewarded.
    I have a lot more of the testimony, but I am going to just 
close here by saying that we do not have any illusions about 
the work that lies ahead of us. Right now in this city, a 
student's race and income remains a determining factor in the 
number and quality of choices that students will have upon 
exiting the public school system. This is inexcusable, and it 
becomes more painfully acute to anyone who visits our schools, 
speaks with our students, and sees directly how capable and 
curious they are.
    We are working furiously to correct this injustice, and we 
have made significant progress over the past 2 years. The 
accomplishments we have shared with you, the most important of 
which belong to our students, we believe merit recognition in 
any measure or oversight of this rewarding work.
    As we continue this forward movement with our school staff 
and students, we remain grateful for your support, and I am 
happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Rhee.
    Mr. Reinoso, will you please proceed with your statement?

  TESTIMONY OF VICTOR REINOSO,\1\ DEPUTY MAYOR FOR EDUCATION, 
                      DISTRICT OF COLUMBIA

    Mr. Reinoso. Good afternoon, Senator Akaka, Senator 
Voinovich, and Members of the Subcommittee. I am pleased to 
appear before you today to report on the continued progress 
made by the District of Columbia in implementing the Mayor's 
public education reform initiatives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reinoso appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Over the past 2 years, the District has become a focal 
point for the national education reform community, and I 
believe what we are doing here and the progress we are making 
can and will serve as a model to other urban jurisdictions 
seeking to improve dramatically the public education 
opportunities available to children.
    My office, the Office of the Deputy Mayor for Education 
(DME), was established to perform two main functions: First, to 
ensure that the education reform efforts of the District of 
Columbia Public Schools, the Office of the State Superintendent 
of Education (OSSE), the Office of Public Education Facilities 
Modernization (OPEFM), and the Ombudsman for Public Education 
are aligned in priorities and strategies; and, second, to 
marshal the District's resources, public and private, education 
and non-education, to support education reform efforts and 
outcomes for all the District's students. My office has made 
significant progress on these fronts, and I am happy to share 
some of that progress today.
    From the beginning, the Mayor has asked us to focus on 
implementation and accountability for results. In preparing to 
take over the school system, we noted numerous reports and 
plans that had been developed and subsequently piled up over 
the years and resolved to hold ourselves accountable for 
execution and results. My office's role is to make sure we are 
all moving at the same pace, on the same page, and on the right 
track. We problem-solve where there are obstacles or issues, 
keep staff focused on the agenda, and develop the right 
strategy to address a given issue.
    Alignment of strategies comes in many forms, but almost 
always involves convening the right people around the table. 
Prior to the Mayor's reform, this was the missing piece. City 
leaders would constantly hear the complaint from agencies that 
the school system was not at the table and, likewise, the 
school system would complain that they had little or no 
collaboration with other city agencies.
    Alignment of reform strategies became even more important 
as we separated State from local education functions and 
facilities and other education-related services from the school 
system.
    We have established several mechanisms for regular, agenda-
driven communication among the education agencies at leadership 
and staff levels. My office also leads working groups and 
conversations around specific big-picture priority issues such 
as special education and school health.
    Similarly, at the program level, the DME has worked with 
both DCPS and the OSSE on developing strategies and policies 
for alternative education, discipline and attendance, and adult 
education programming.
    Finally, my office continues to work closely with DCPS, 
OPEFM, and city planning staff around school facilities 
planning, and the Mayor recently submitted to the council a 
revised Master Facilities Plan that will modernize every 
classroom over the next 5 years.
    Through these efforts, I am confident that the education 
strategies and policies of the District agencies are aligned. 
The June 2009 draft GAO report came to the same conclusion 
after careful review.
    The other major focus of the DME over the past 2 years has 
been the initiatives associated with the Interagency 
Collaboration and Services Integration Commission (ICSIC). 
Identifying the needs of children and families inside and 
outside of the classroom and figuring out how to address them 
by creating innovation and coordinating existing efforts within 
other agencies is challenging and intense. However, early 
results are promising and demonstrate that we are on the right 
track.
    Part of our charge from the Public Education Reform Act is 
to develop and incubate innovative programs that address issues 
affecting social and emotional development of students, school 
climate and safety, and alcohol and substance abuse. We do this 
by researching and selecting evidence-based programs and 
initiatives and then piloting them carefully at the school 
level. At the end of the pilot period, the goal is to evaluate 
the effectiveness of the programs and then transition them to a 
home agency where they can be scaled up and implemented 
permanently.
    This past school year, we successfully implemented the DC 
Student Assessment and Resilience Team (START) 
multidisciplinary school mental health and intervention 
program. We hired seven social worker clinicians to serve 
students at six DCPS elementary schools and one middle school. 
We strongly believe in the DC START model and its comprehensive 
approach to early intervention.
    In addition to DC START, ICSIC has implemented four other 
evidence-based programs this year. Combined, we are serving 
over 5,500 students at 50 schools. Adding in the other 
programs, we have trained over 300 DCPS, Metropolitan Police 
Department (MPD), and Department of Mental Health (DMH) staff 
working in schools over the past 8 months. My office works 
steadily on monitoring these programs and their implementation, 
reaching out to school-based staff to ensure that the programs 
are utilized effectively and have the maximum positive impact.
    We continue to work across agencies through ICSIC to 
improve outcomes related to health, student achievement, youth 
engagement, and transition to adulthood. The goal of all of 
these efforts is to provide a safer, more supportive learning 
environment for students so that they can take full advantage 
of the educational opportunities available to them.
    While I think the Subcommittee can agree that we have made 
substantial progress in only 2 years, no doubt we have much 
work left to be done. With this in mind, we endeavor to 
continue moving forward with an unwavering commitment to 
implementation and results.
    Again, thank you for the opportunity to discuss these 
issues. I look forward to your questions.
    Senator Akaka. Thank you very much, Mr. Reinoso. Ms. 
Briggs, will you please proceed with your statement?

     STATEMENT OF KERRI L. BRIGGS, PH.D.,\1\ ACTING STATE 
       SUPERINTENDENT OF EDUCATION, DISTRICT OF COLUMBIA

    Ms. Briggs. Thank you. Good afternoon, Chairman Akaka, 
Senator Voinovich, distinguished Members of the Subcommittee, 
Committee staff, and guests. I am Kerri Briggs, and I serve as 
the Acting State Superintendent of Education for the District 
of Columbia. It is my pleasure to be here this afternoon to 
discuss the role of the Office of the State Superintendent and 
the Mayor's effort to reform education.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Briggs appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    It is truly a special time for education reform in the 
District. We have a mayor, a city council, a schools 
chancellor, charter school leaders, and a State Board of 
Education who are all dedicated to improving schools for our 
students. Thousands of dedicated teachers and other staff are 
joining as well and embracing a new culture of achievement.
    The Office of the State Superintendent of Education was 
created 2 years ago to comply with Federal education law, and 
it is designated as a State education agency. This office was 
created to manage Federal funds so that DCPS and the 57 charter 
local education agencies (LEAs) could focus on working with 
schools.
    In my short time in serving in this role, I have identified 
certain challenges ahead of us, one of which is discussed in 
the report. In 2006 and again last year, the U.S. Department of 
Education placed D.C. schools on high-risk status due to 
mismanagement of grants and failure to comply with Federal 
rules.
    After nearly 8 years with the U.S. Department of Education, 
I know the ins and outs of the system. I have seen firsthand 
how the relationship between Federal, State, and local agencies 
can have a profound impact on kids. I am confident the 
priorities we are setting at the State level will maximize the 
impact of the Chancellor's reform efforts.
    That is why my colleagues and I have been working 
diligently to correct these problems. OSSE is working with the 
U.S. Department of Education to address our high-risk grantee 
status through the design and implementation of a comprehensive 
and strategic corrective action plan. Addressing these issues 
around our high-risk designation is OSSE's top priority, and a 
dedicated team of analysts has been assembled and moved to my 
executive office to steward this reform effort.
    We are also set to distribute funds smartly to LEAs to 
advance the American Recovery and Reinvestment Act (ARRA) 
principles set forth by the U.S. Department of Education. 
Receiving Federal stimulus funds and our high-risk grantee 
status are providing OSSE with a new opportunity to set 
standards around Federal grants management. We will also take 
advantage of the ARRA reporting requirements to gather and 
analyze data that will in turn inform future policy decisions.
    While we are cleaning up our business operations, we are 
also working on efforts to improve student achievement. My team 
is currently assessing our data systems and capabilities and 
will work aggressively to improve upon them to make data an 
effective tool at the school, District, and State level. The 
first step in that process is to develop and implement the 
Statewide Longitudinal Education Data (SLED) System.
    Once built, this database will enable the sharing of 
critical information that tracks student learning, spanning 
early child care, pre-school, K-12, post-secondary, and adult-
serving institutions.
    During this past year, the production of the Unique Student 
Identifier (USI), which included student demographic 
information, was released. The USI is the key lever for linking 
all student data together within the SLED System and with all 
other educational systems within OSSE.
    The State Superintendent's Office also sets teacher quality 
criteria as required by the No Child Left Behind Act. As of 
October 2006, OSSE changed its criteria to align with the 
Federal definition of ``highly qualified teachers.'' Under this 
definition, all teachers must have, at a minimum, a bachelor's 
degree, State certification, and demonstrated subject area 
knowledge through a competency test, an evaluation, or 
completion of additional degrees.
    Accountability extends to more than our students, teachers, 
and schools. It also extends to our internal management 
performance. In an effort to create a culture of 
accountability, the ePerformance management system was launched 
in October 2008. It established clear expectations for all 
staff.
    ePerformance has been operational since January 2009, and 
OSSE is successfully moving through that implementation 
timeline. I am confident that the system is setting clear 
expectations for all employees, which is an important part of 
working towards achieving OSSE's strategic objectives.
    The reforms that the District has put in place represent a 
once-in-a-lifetime opportunity to transform a previously broken 
school system. Likewise, our strategic plan will make the State 
Superintendent's Office more nimble, more responsive, and more 
accountable to families and taxpayers. It means issuing clear 
and timely guidance to help educators access available 
resources. It means focusing energy and resources on the 
challenges identified in the OSSE strategic plan--that is, 
grants management, quality special education, and the need for 
a reliable data system to track student achievement.
    It also means collaborating with other States to develop 
rigorous, internationally benchmarked, common core standards to 
make sure that when D.C. students graduate from high school, 
they are prepared to succeed in college and to compete in the 
global marketplace.
    The good news is that we are seeing results. As the 
Chancellor noted, results are up across the board, both in DCPS 
and also in charter schools. But as you know, my agency does 
not always work directly with schools, but we can and must 
develop an effective and efficient State education agency to 
ensure that our talented educators are supported by this agency 
and not deterred. If we do a better job of allocating resources 
and human capital, they will have greater freedom to help our 
students improve.
    Thank you, and I look forward to answering your questions.
    Senator Akaka. Thank you very much, Ms. Briggs. Ms. Ashby, 
will you please proceed with your statement?

   TESTIMONY OF CORNELIA M. ASHBY,\1\ DIRECTOR OF EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Ashby. Mr. Chairman and Members of the Subcommittee, I 
am pleased to be here today to discuss DCPS's efforts to reform 
the District's public schools. This afternoon, my remarks will 
focus on steps DCPS has taken to address student academic 
achievement, teacher and principal quality, strategic planning, 
and its accountability and performance.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ashby appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    With respect to student academic achievement, following 
passage of the Public Education Reform Act, DCPS quickly 
implemented several initiatives, including supplemental 
instruction and practice to improve the basic skills and test 
scores of students struggling in reading and math; providing 
all schools with art, music, and physical education teachers, 
as well as supports such as social workers; restructuring 
schools that had not met academic goals for 6 consecutive 
years; and along with the State Superintendent's Office, 
developing new ways to use data to monitor student and school 
performance.
    Based on lessons learned, DCPS is making changes as it 
continues these initiatives. For example, the Chancellor 
recently acknowledged that DCPS, in its effort to remedy the 
range of issues that plague the school system, may have 
launched too many initiatives at once, and some schools may not 
have had the capacity to implement them all. To support such 
schools, DCPS is considering allowing principals to determine 
which programs best suit their schools' needs and capacity. In 
addition, rather than focusing on implementing initiatives, for 
the 2009-2010 school year, DCPS will focus on effective 
teaching by helping teachers understand what students are 
expected to learn, how to prepare lessons, and effective 
teaching methods.
    In attempting to strengthen teacher and principal quality, 
DCPS focused on a workforce replacement strategy, hiring, for 
the 2008-2009 school year, 566 teachers and 46 principals to 
replace about one-fifth of the teachers and one-third of the 
principals who had been on board during the 2007-2008 school 
year and had resigned, retired, or were terminated.
    However, DCPS officials told us that the 2007-2008 and 
2008-2009 school system teacher evaluation process did not 
allow them to determine whether the teacher workforce improved 
in terms of impact on student achievement between these two 
school years. DCPS plans to revise its teacher evaluation 
process to assess teachers, in part, on their ability to 
improve students' test scores over the course of a school year.
    In addition to the workforce replacement strategy, DCPS 
introduced new professional development initiatives, including 
hiring 150 teacher coaches for the 2008-2009 school year to 
improve teacher skills in delivering reading and math 
instruction.
    The State Superintendent's Office and DCPS each developed 
5-year strategic plans and involved stakeholders in the 
process. However, while DCPS has increased efforts to involve 
stakeholders in strategic planning and key initiatives, DCPS 
has initiated some key initiatives with limited stakeholder 
involvement. For example, key stakeholders, including D.C. 
Council members and parent groups, told us they were not given 
the opportunity to provide input on DCPS's initial proposals 
regarding school closures and consolidations; the establishment 
of schools that span pre-kindergarten to grade 8; or planning 
an early implementation of a new staffing model that placed 
art, music, and physical education teachers at schools and 
fundamentally changed the way funding is allocated to schools.
    DCPS has taken steps to improve its accountability and 
performance which include developing scorecards for central 
office departments to identify performance expectations and 
discussing progress with senior-level managers at weekly 
meetings with the Chancellor, and assessing central office 
employee performance twice a year. However, while according to 
DCPS officials, DCPS has taken steps to align central office 
departmental scorecards with 2009 annual performance goals, 
DCPS has not yet explicitly linked employee performance 
evaluations to its overall goals. DCPS officials told us they 
plan to do so this summer.
    The challenge of reforming the District's public schools is 
daunting, and DCPS and other members of the Mayor's education 
team have taken bold steps to improve the learning environment 
of the District's students. In moving forward, in order to 
sustain the progress achieved over the past 2 years and 
effectively implement new reform initiatives, it is important 
that DCPS have planning processes that ensure timely 
communication with stakeholders, including stakeholders within 
the school system who are knowledgeable about such things as 
individual school needs and capacity constraints, and 
incorporation of their views in decisions, and that central 
office employees are held accountable for contributing to the 
achievement of DCPS's goals.
    As the Chairman said in his opening statement, in our 
report--which is being released consecutively with this 
hearing--we make two recommendations that could improve the 
implementation and sustainability of reform efforts. We 
recommended that the Mayor direct DCPS to (1) establish 
planning processes that include mechanisms to evaluate its 
internal capacity and communicate information to stakeholders, 
and when appropriate, incorporate their views, and (2) link 
individual performance evaluations to the agency's overall 
goals.
    In commenting on a draft of the report, the Deputy Mayor 
for Education, the Chancellor, and the State Superintendent 
said they agreed with the substance of our recommendations.
    Mr. Chairman and Members of the Subcommittee, this 
concludes my prepared statement. I would be happy to answer any 
questions.
    Senator Akaka. Thank you very much, Ms. Ashby, for your 
statement.
    And now we have other Members here that I will call on for 
any opening statements you may have. Let me call on Senator 
Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman. Yes, I did have an 
opening statement. I am sorry I had to duck out. I have another 
meeting. But I am deeply concerned about the structure, Mr. 
Chairman, and I will have a lot of questions about that when I 
do this opening statement.
    Charles Keating, a great American inventor, once said, 
``High achievement always takes place in a framework of high 
expectations.'' High expectations have been placed on the D.C. 
Public School system, as they should be for every public school 
system across our Nation. Expectations are met with dedication, 
teamwork, and by adhering to a strategic plan that moves toward 
an end goal--in this case, responsible reform of the District's 
public schools.
    Coming from Illinois, I understand the hardship involved in 
reforming and maintaining a high-quality public school system. 
The Chicago Public School system is the third largest school 
system in our country. It is evident that improvement does not 
solely rest on the shoulders of our teachers. School 
infrastructure, safe classrooms, and the involvement of the 
stakeholders like the local community and public officials are 
just some of the factors that contribute to the success of 
today's youth.
    Our communities face unique challenges when it comes to 
public education. I attend this hearing today to examine the 
progress of the District schools under this new structure, but 
I also hope to gain insight on lessons learned along the way.
    Being a grandfather myself and having witnessed the 
importance that education has had on my children, I hold a 
special place in my heart for educational reform. The purpose 
of getting an education is not just to further oneself in the 
professional realm, but to instill a sense of intellectual 
curiosity in future generations.
    Senator Akaka, I know that, you being a former public 
school principal and teacher, this is an issue close to your 
heart. I am glad that I am here today to participate in this 
hearing. I do not know what your questions will be, but I do 
have some concerns about the structure, workings, and progress 
in these 2 years of reform.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you for your opening statement. 
Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. I will just wait 
until it is questioning time. Thank you, though.
    Senator Akaka. Thank you. Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Mr. Chairman, I will also submit my 
opening statement for the record, and I am, unfortunately, 
going to have to slip out in just a few minutes. But I wanted 
to comment, let my presence be a signal that I want to be very 
supportive of the reform efforts underway and to congratulate 
you all for what you have done thus far. And I look forward to 
working with the Chairman and the Members of this Subcommittee 
to continue to work with you in a strong partnership until we 
get the District of Columbia schools to become among the top in 
the Nation, just like we are working on many of our other 
districts around the country. And under the appropriate 
jurisdictional models that we have, I really think that it is 
possible. I think that there are some exciting experiments and 
initiatives underway that are showing a lot of promise, and I 
just think we have to continue to push forward. So I thank you 
all very much.
    [The prepared statement of Senator Landrieu follows:]
                 PREPARED STATEMENT OF SENATOR LANDRIEU
    Thank you, Chairman Akaka and Ranking Member Voinovich for 
convening this important hearing.Over 5 years ago, I worked together 
with my colleagues on both sides of the aisle to craft a fair, 
responsible and visionary approach to public school reform in the 
District of Columbia. It is critical that we review and assess how 
education reform has impacted student achievement in our Nation's 
capital.
    DC Public Schools have long been in dire straits. It is tragic that 
children attending public schools in our Nation's capital receive sub-
par educations. The achievement gap is 70 percentage points between 
black and whites in the city's high schools. Only 9 percent of D.C. 
high school students will graduate from a college within 5 years of 
leaving the city's system. Only 8 percent of ninth-graders are 
proficient in math. Our children languish in schools that do not 
provide them with the education they need to thrive in life and become 
successful adults. In addition to losing generations of children 
unprepared for the workforce, we lose countless potential workers who 
could help maintain our global competitiveness.
    However, there are reasons to be hopeful. Chancellor Michelle Rhee 
has brought about dramatic reforms into the school system. It is clear 
from the testimonies of the witnesses here today that significant 
progress towards reform has been made; however, we still have a long 
road in front of us until reform is fully achieved. The latest GAO 
report has recommended the Mayor direct DCPS to involve stakeholders 
more during key decisions. As a matter of two school-aged kids, I know 
how crucial it is to keep parents involved in these discussions and 
listen to their input. The DCPS steady gains in reading and math at the 
elementary and secondary levels is both promising and a sign that we 
are getting closer to putting DC schools on the right path. Still, we 
must focus on how to keep improving these scores in the long run.

    Senator Akaka. Thank you very much, Senator Landrieu.
    Chancellor Rhee, the GAO report indicates that DCPS may 
have undertaken too many initiatives at once. I understand you 
are using a new Teaching and Learning Framework to evaluate 
which initiatives should continue and are effective.
    Will you please describe this new framework and how you are 
implementing it?
    Ms. Rhee. Sure. I believe that what the GAO report was 
referring to was the fact that I communicated to teachers 
formally the fact that I knew that lots of them felt 
overwhelmed because we had a number of new initiatives over the 
last 2 years. Part of the challenge that we face is when you 
come into the lowest-performing school district in the country 
where things really are so dysfunctional and there is so much 
work to be done, we had a lot of enthusiasm for trying to 
tackle as many of those challenges as we could as quickly as we 
could. And a lot of this was in response to teachers and 
principals coming to us and saying, ``We need more resources. 
We need more programs. We need more guidance around high school 
civics classes or around Algebra I or reading interventions at 
the elementary level,'' etc.
    And so as people were telling us what the needs were, we 
rolled out a lot of new initiatives. And, to hear it from the 
teacher vantage point, they would say, ``We do not have any 
problem with the individual initiatives, but taken in a sum 
total, it is somewhat overwhelming to know that we are having 
to implement all of them.''
    So what we have done to try to differentiate a little from 
school to school and teacher to teacher is to roll out a new 
Teaching and Learning Framework--and that will happen this 
summer--that basically lays a foundation for what our 
expectations are when we walk into a classroom and we walk into 
a school, and to make those very clear so we have very clear 
rubrics that identify what we expect to see.
    Then on top of that, we will have a toolbox where we have 
District-approved programs, interventions, various initiatives 
around reading, math, early childhood, special education, etc. 
And schools can look at the toolbox in total, determine what 
the needs of their particular classrooms and schools are, and 
then utilize those programs as they feel they have the capacity 
to take them on. So we will provide a little bit more 
flexibility in that way to be able to differentiate from school 
to school.
    Senator Akaka. I believe solid training and mentoring are 
crucial in molding successful teachers. I understand that you 
are using teacher coaches, as you mentioned, and have created a 
principals' academy.
    Can you tell me more about these and other initiatives to 
train and mentor educators?
    Ms. Rhee. Sure. On the teacher side, there were two main 
initiatives that happened over the course of the last 2 years. 
The first is the instructional coaches. What we found when we 
came to the District was that professional development was 
happening to teachers in a very disjointed way. So they would 
go to workshops or trainings that were at various times on 
different subjects, but there was no cohesion or alignment to 
those professional development initiatives.
    Then the second thing that we got feedback on was that 
teachers felt that the trainings, themselves, were too separate 
or too distant from what was happening every day in their 
schools and their classrooms. So we invested a significant 
amount of money and resources in ensuring that we could hire at 
least one, and sometimes two instructional coaches for every 
school, and that was actually part of our comprehensive 
staffing model.
    So now we have a full-time person in every school whose job 
it is to actually go into classrooms, to observe teachers, 
people who know the children, the circumstances, who can build 
personal relationships with folks, so that the professional 
development that is happening is much more meaningful and it is 
job-embedded.
    The second component was that we are working towards a 
full-time release mentor model for new teachers, so the 
standards of new teacher mentorship is that you have another 
teacher, either in the building or somewhere else, who gets 
paid, a small stipend to help that teacher on the side. And for 
a lot of our new teachers that level of support just is not 
enough to acclimate them to the challenges of our schools. So 
what we have moved towards is a mentor model where we have 
full-time mentors who have a caseload of new teachers, and 
their job and responsibility, is to travel between the 
classrooms of those teachers and provide full-time mentoring to 
them.
    On the principal academy side as well, we have put a 
tremendous amount of resources into ensuring that on a very 
regular basis we are meeting with principals, pulling them 
together, and covering topics with them that they believe they 
need in order to build their skill base.
    Senator Akaka. Chancellor, GAO indicated that the DCPS 
currently is using a core staffing model to increase student 
access to subjects like art and music. As a former music 
teacher, I believe these types of classes are valuable for 
young people.
    Please elaborate on how DCPS determines which subjects to 
offer and how many staff to assign to each school.
    Ms. Rhee. Sure. When I came into this job, one of the most 
surprising things that I heard, but also one of the most 
pervasive, was a feeling from people, from families in 
different parts of the city, that they did not understand why 
they were getting different resources than schools in other 
parts of the city. And a common refrain that I heard was, ``We 
do not have an art teacher, a music teacher, or a physical 
education (PE) teacher. Why do the schools west of the park 
have all of those things?''
    And what we found was that it was not for a lack of 
resources per se, but that schools--at the individual school 
level, principals were making decisions about what kinds of 
teachers they were going to hire and where they were going to 
spend their money, and that those decisions were not consistent 
across the District. And what that resulted in was people, 
unfortunately, gaining a perspective where they began to think 
that art, music, and PE were extracurricular activities instead 
of what I believe they should be seen as, which is an integral 
part to any broad-based, robust curriculum.
    So what we did was to say that there was a core staffing 
model that every school, regardless of what part of the city it 
was in, how many children it was serving, all of those students 
deserved to have access to art, music, PE, to librarians, to 
full-time nurses. So that was an important part of what we were 
doing.
    We also added social workers and/or a counselor at every 
school, and we wanted to set that benchmark for what that 
comprehensive staffing model looked like overall. So that even 
though we could not necessarily ensure that the entire staffing 
model existed at every single school, we wanted to set the 
benchmark out and draw the line in the sand that said this is 
what we are striving towards.
    In terms of determining how many of each of those kinds of 
staff members are at every school, it is based on the number of 
pupils that are at that particular building.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. In April, as I mentioned in my 
statement, I wrote to you and Mayor Fenty and the 
Administration regarding the D.C. Opportunity Scholarship 
Program, and I was very pleased to receive a response from 
Secretary of Education Duncan. In fact, I got back to her, and 
she got back to me, and, unfortunately, neither you nor Mayor 
Fenty responded. And, Mr. Reinoso, I would like you to let the 
Mayor know I want an answer to my letter.
    Since I have not received a response, I was hoping, 
Chancellor, that you might share with me your thoughts on the 
D.C. Opportunity Program in terms of supporting the District's 
efforts to ensure each student has access to a quality 
education, and I would be interested in knowing how you feel 
about the recommendation that only those that are in it are 
going to be able to participate and you are going to shut off 
any other people from participating.
    Ms. Rhee. So my belief about vouchers I think probably is 
very different from most Democrats--I am a Democrat--here is 
the bottom line. I do not believe that vouchers are the answer 
to the problems in public education today. The bottom line is 
that the amount of the vouchers do not allow children access to 
some of the highest-quality private schools that are in 
existence, and just by virtue of having a voucher, it does not 
guarantee you admission into a school. And so with those 
dynamics in place, it is not the answer to the problem.
    That said, I do think that given the situation that our 
families face today, vouchers can be an important part to the 
choice dynamic that I think is healthier here in Washington, 
DC, than almost any other city in the country. We have a tri-
sector approach where we have a robust charter community, we 
have the Opportunity Scholarships Program, and then we have the 
reforms going on DCPS.
    I answer e-mails from hundreds and hundreds of families 
every year who come to me and say-- we do exactly what we would 
want them to do as families. So they do the research and they 
say, ``My neighborhood school is not up to snuff. I applied to 
all of these schools out of boundary. I was not awarded a seat 
in any of those schools.'' And so they come to me and say, 
``Now what am I supposed to do?''
    I think that is a valid question because the bottom line is 
we have some high-performing schools in the district, but those 
schools do not have a lot of seats for out-of-boundary kids.
    I believe that in those circumstances we ought to be able 
to provide those families with some choices so that they can 
move out, or not have to place those children in those failing 
schools, and I believe that the Opportunity Scholarships 
Program and the continuation of the tri-sector approach is one 
way that can happen.
    In the long term, I am not sure what that solution is going 
to be, but at least for where we are now and given how far we 
have yet to go. I believe that the tri-sector approach 
continues to make sense.
    The Deputy Mayor, the Mayor, and I have consistently been 
vocal advocates of the fact that this tri-sector approach be 
maintained and continued into the future.
    Senator Voinovich. Thank you. It is also troubling to me 
that because of contractual agreements, teachers who are not 
meeting basic expectations are being transferred to other 
schools instead of being removed from the school system. And I 
would be interested to know what is the rationale for 
transferring poor performers from one school to another. And 
how does the DCPS decide where those teachers are going to be 
placed? And the real question--and I think it gets to the 
report that was done--is whether or not you have the kind of 
performance evaluations that should be linked to the school 
system's goals.
    In other words, the problem is you are a good teacher, you 
are a bad teacher. How do you determine whether they are good 
or bad? And if you have objective standards and everybody kind 
of agrees that is the standard, you are much better off in 
terms of making a decision regarding that individual. But what 
bothers me is that now under the present system, if you think 
someone does not have it, you move them to someplace else.
    Ms. Rhee. That is right.
    Senator Voinovich. It seems to me that if they are not 
performing, there ought to be a provision that says we will 
help you, and if you are unable to be helped, you have to be 
terminated.
    Ms. Rhee. That is exactly right. You started your question 
by asking what sense does that make, and it doesn't make any 
sense. And that is why we are working so diligently to change 
the teachers union contracts and the provisions within that, 
because the reality is that--and I will give you a concrete 
example. We were looking to reconstitute two of our lowest-
performing high schools this year. ``Reconstitution'' means 
that all of the teachers have to reapply for their jobs, and 
then the new Administration can choose the teachers that they 
want, and the other ones are dispersed.
    This creates a situation, though, that is incredibly 
troublesome on many fronts because say there are about 100 
teachers at each of these high schools, that means that there 
are potentially upwards of 200 teachers who, by the current 
teachers union contract that we have, we owe them a job. We 
have to place them before we can hire new teachers into the 
system.
    And so we leave the other 10 large comprehensive high 
schools in a situation where essentially any new teachers that 
they are going to hire, they are going to have to choose--these 
200 displaced teachers are eventually going to get forced onto 
these 10 schools, some of them who are just hanging on by their 
fingernails, they are just one level above where these two 
lowest-performing ones are. And by having an influx of 15, 20 
new teachers that they do not have any say over--these people 
are forced into their schools--can be incredibly detrimental to 
the school culture and to any progress that the school is 
making.
    We do not think that this is a system that is thinking 
about the best interests of student achievement at its core. We 
believe that it is a system that is detrimental to the culture 
of accountability that we are trying to establish. And that is 
why we are working so vigorously to try to change these 
provisions to ensure that a school has a right to choose the 
teachers actively and on the other side that teachers have a 
say in where they are going, and that we are not creating a 
system where poor performers are being shuffled throughout the 
system.
    Senator Voinovich. And you need the union to agree to that?
    Ms. Rhee. Yes.
    Senator Voinovich. What is the prospect of that happening?
    Ms. Rhee. Well, we are working on it. It varies by the day 
sometimes. We have made some very good progress over the last 2 
months. We have asked the Dean of the Howard Law School, Kurt 
Schmoke, to serve as a mediator between the union and the 
District as it comes to those negotiations. His involvement has 
been absolutely critical. It has really taken us an incredibly 
long distance from where we were before he was involved. And he 
remains very hopeful that we will be able to come to 
resolution.
    I do not know at the end of the day whether that will 
occur, but we are hopeful, and both the union and the District 
have articulated on many occasions that our ideal on both sides 
would be that we would try to come to resolution on a new 
contract before the beginning of the next school year.
    Senator Voinovich. Mr. Chairman, if you do not mind, I 
would just like to say that when I was governor, in the area in 
Ohio where you lived, in Toledo, we were able to work an 
agreement that basically said that a teacher could ask for 
help, other teachers could ask for help for them, or the 
principal could ask for help. We provided additional money for 
master teachers, and I think that is what you are--in your 
testimony, you are trying to do that. And then they would be 
given an opportunity to shape up, and after that, if they did 
not, then they were gone. But that was the way we compromised 
it. Unfortunately, that program is no longer in existence. But 
it is the kind of thing you are trying to work something out 
with the teachers to try and make sure that the people that 
really are not--I mean, the teachers, I think most of them, are 
just as interested in having good teachers. If they have a bad 
teacher, they know it, and they should be able to say, ``Hey, 
you need some help.'' And a lot of teachers maybe know they are 
not that good. They ought to be able to come in and say, ``I 
need help,'' or the principal should be able to do that. And I 
think if they have been given an opportunity to go through that 
process, that is fair, and then if they cannot make it, then 
usually what happens is you get terminated.
    Ms. Rhee. That is right. As you noted, in my hometown of 
Toledo, Ohio, that is one of the districts that really piloted 
and sort of pioneered the Peer Assistance and Review Program.
    In our new evaluation model that we will be implementing 
this school year, we have taken a lot of the best components of 
that by having a peer master educator be a significant part of 
the evaluation and observation process for teachers, and that 
component has been extremely well received amongst our teaching 
force.
    Senator Akaka. Thank you, Senator Voinovich. Senator 
Burris.
    Senator Burris. Thank you, Mr. Chairman. Will there be a 
second round on this?
    Senator Akaka. Yes, there will be.
    Senator Burris. Because I have so many questions, and I 
want to deal with structure in this round and then education in 
the next round. I am looking at an organizational chart in 
reference to, Madam Chancellor, who you report to, and the 
Chancellor is reporting to the Mayor, and the Deputy Mayor for 
Education is reporting to the Mayor. Is that correct?
    Ms. Rhee. Yes.
    Senator Burris. And then there is a component called the 
State Board of Education. I would assume that in the 
legislation they created a State Board so that you all could be 
comparable to a State, so that you can get State funds or 
something? I am trying to see this entity. How many students 
are in the D.C. Public School system? Two hundred thousand? 
What is the number?
    Ms. Rhee. There are about 47,000 students in the D.C. 
Public Schools in the traditional public schools. And then 
there are an additional between 27,000 and 30,000 in the 
charter schools.
    Mr. Reinoso. So a total of about 77,000 public school 
students in the city attending either DCPS or charter schools.
    Senator Burris. You have charter schools.
    Ms. Rhee. Yes.
    Senator Burris. And you have this structure with a State 
Board of Education which reports--on my chart I am looking at, 
the State Superintendent has some contact with the Chancellor. 
And then, otherwise, the State Superintendent of Education 
comes under the Deputy Mayor. It looks like to me you do report 
somewhat to the State Board of Education. And, by the way, I do 
not see D.C. being a State. I cannot understand this because to 
me we have 50 States. I did not know we had 51, Mr. Chairman, 
but now I see we view the District of Columbia as a State when 
it wants to be, as a city when it wants to be, as a county when 
it needs to be, and it has all these jurisdictions that are 
very confusing, this bureaucracy to deal with 47,000 students 
in your public school system.
    And so what is your background, Deputy Mayor? Are you an 
educator?
    Mr. Reinoso. I was a former member of the school board.
    Senator Burris. You were a member of the school board. The 
local school board, which no longer exists.
    Mr. Reinoso. Correct.
    Senator Burris. Now there is a State Board, which I thought 
the Superintendent reports to the State Board.
    Mr. Reinoso. If I may, I will try to provide some context, 
which hopefully will clear up some of the confusion. One of the 
reasons that the District was placed on high-risk status by the 
U.S. Department of Education, had to do with commingling of 
State and local education responsibilities, which, by Federal 
law, are to be separate. And so the State structure that exists 
in the District, while it is true we aspire to that status, it 
addresses a necessary component of Federal legislation 
requiring that Federal dollars flow through and be monitored 
and be granted out by the State Department of Education, and 
that those decisions be separated from any local school 
district so as to avoid conflicts of interest in reporting and/
or in the doling out of those Federal grant dollars.
    And so that is a key reason why you see a separate State 
structure. It also is why the reporting structure is different 
so that the oversight on a day-to-day basis of the State 
responsibilities is separate from DCPS. And so that is why the 
Chancellor reports directly through the Mayor and why the State 
office reports through me, to create some distance between the 
reporting structure and not to have the same person overseeing 
the two entities on a day-to-day basis.
    The State Superintendent is appointed by the Mayor, serves 
for a term position, does not report to the State Board, but 
works----
    Senator Burris. The State Superintendent does not report to 
the State Board. The State Superintendent reports to the Mayor.
    Mr. Reinoso. Yes.
    Senator Burris. And the Deputy Mayor----
    Mr. Reinoso. To the Deputy Mayor, rather. To me.
    Senator Burris. And who do you report to?
    Mr. Reinoso. I report to the Mayor. I mean, ultimately 
there is only so many places a reporting structure can end up.
    Senator Burris. I know the system was designed before I got 
here, but I am just trying to get an understanding, because 
given my knowledge of this process and procedures, I just see 
an administrative boondoggle here. I want to know where you all 
are going to be 2 or 3 or 4 years from now trying to be a 
State. I understand what you are trying to do, because most 
States have a State Board of Education where there is a State 
Superintendent of Education. I assume that is what the 
structure was seeking to do.
    Mr. Reinoso. Yes, and----
    Senator Burris. That is done by the Governor.
    Mr. Reinoso. Right.
    Senator Burris. And then you get into your local school 
district or your municipalities, and you take the big district 
like Chicago, for example, when our legislature then gave the 
responsibility to the Mayor of Chicago, that was done out of 
political motivations. And based on that, the Mayor now hires a 
CEO, and we have 400,000 students in the Chicago Public School 
District--400,000, and its bureaucracy is not as cumbersome as 
this here.
    So I am just hoping that you all can get through as to who 
has what responsibility in this regard.
    Mr. Reinoso. I appreciate that, given the small number of 
students and the small geographic footprint of the city, that 
it seems like a number of entities. But if you layer in the 
Illinois State into that, you would find a similar structure.
    Senator Burris. A similar structure for 2 million students 
not for 40,000.
    Mr. Reinoso. I appreciate that, and, again, we are very 
much focused on meeting the Federal requirements for the 
separation of the State and of the LEA. I am sure that the 
Chairman of the Subcommittee, from his own experience--Hawaii 
is another place where there are some similarities in terms of 
the local and State functions having been in one place. And the 
struggle of separating those out has been for us a challenge, 
but we have made a tremendous amount of progress, and keeping 
that separation. And so as a result, keeping the kind of 
structure that at the typical city level seems redundant is a 
necessity, in fact, mandated by the Federal laws on the 
separation of----
    Senator Burris. I understand it is mandated by statute, but 
I am also going to empathize or sympathize with you all that 
have to try to work under this bureaucracy. I mean, I am not 
criticizing.
    Mr. Reinoso. I understand.
    Senator Burris. As a newcomer to this, I am just assessing 
it and pointing it out, and I want to be on record as saying I 
hope that you all can survive through this on such a smaller 
scale, but to try to make yourself comparable to one of the 50 
States is what is creating the problem. And then the limited 
number of students--we want this to get down to the classroom. 
I am looking at all this bureaucracy that is going to be here, 
and where we want to be getting is in those classrooms with 
those students, with educational, tools and guidelines so that 
those kids will not end up in prison, jail, or as liabilities 
to society.
    And so I just hope that this structure--I do not know. I 
have some questions for GAO as they assess this. I hope that 
GAO stays on top of especially the bureaucracy and the 
interaction between the Chancellor, the Mayor, Deputy Mayor, 
all in one little kit and caboodle. You are trying to put all 
of that structure into--we will just say 70,000 students, which 
to me is----
    My time is up, Mr. Chairman.
    Senator Akaka. Thank you, Senator Burris. We will have a 
second round.
    Senator Burris. Thank you.
    Senator Akaka. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    If we change Federal law, to follow up on this question, 
could you do without the bureaucracy that you are talking 
about?
    Ms. Rhee. I think part of the issue that exists is because 
close to a third of the school-aged children in this city are 
enrolled in charter schools, there has to be an entity outside 
of DCPS that can oversee the Federal dollars that flow to all 
of the LEAs. So even though there is only one official school 
district, there are more than 50 LEAs because so many of these 
individual charter schools are their own LEAs.
    Senator Ensign. Just to simplify it, though, is there a 
change in Federal law that needs to be had so you could 
streamline the bureaucracy? Could you do with less bureaucracy 
if we changed the Federal rules?
    Ms. Rhee. We could always deal with less bureaucracy. Less 
bureaucracy is a good thing. But I do think that there has to 
be an entity that oversees both the District's and the other 50 
LEAs.
    Senator Ensign. There may be some way we can work together 
or something. If there is a change in Federal law that needs to 
happen for you to be able to do with less bureaucracy, we 
should work on trying to do that.
    I found it very interesting when you are talking about not 
being able to fire bad teachers. We have a wonderful place in 
Las Vegas called West Prep. It was called West Junior High 
School. One hundred percent of the students are low-income 
students; I think 98 percent of them are minorities. It was 
considered the worst school in Las Vegas--actually, the worst 
school in the entire State of Nevada several years ago, and a 
real reform-minded educator took it over, hired a young 
principal, and the young principal said, ``OK. I will take it 
over, but I want to be able to choose the teachers,'' similar 
to what you just talked about. Out of the 65 teachers, he kept 
13.
    You walk in there today, and, by the way, they have school 
uniforms. They extended the school day by an hour a day. He 
wants to take it, instead of it just being a junior high, he 
has expanded it out, eventually wants it to be a K-12 school 
because he does not want the kids ruined before they get to him 
or ruined after they leave him.
    I went into the chemistry class when I was out there, a 
young African American girl in a chemistry lab, and I said to 
her--she was there before the changes were made. And I said, 
``What is the difference, the main difference between now and 
before?'' And she said, ``Oh, it is very simple. We actually 
get to learn now.'' I mean, that is such a sad statement, but I 
think indicative of a lot of our failing schools today.
    The good news, after the changes that were made, is the 
energy in these teachers. You walk in this school, and you have 
just never seen energy--I do not care, private school, public 
school, wherever I have been.
    So 3 years ago, West Prep was given freedom to operate 
within the regular public school system. Three years ago, only 
17 percent of the kids performed at grade level at math. Today, 
97 percent of juniors are proficient in reading, 73 percent in 
math, and 64 percent in science. That is what can happen when 
people put kids first. You mentioned that in your statement, 
and that is really to me what it is all about.
    The D.C. Scholarship Program, I agree with you, I do not 
think that vouchers are a silver bullet and are going to solve 
all of our educational problems. I do believe that they are one 
of the answers, just like I believe charter schools are one of 
the answers, because I believe competition actually works to 
improve things.
    But, also, this idea of teacher tenure in elementary and 
high school is the most--excuse my language--asinine thing that 
I have just ever heard of. Tenure was put in for college 
professors so they would not be fired because of political 
beliefs. So after they were there, they had kind of earned 
their stripes, they could not be fired for political beliefs. 
That was the original reason for tenure, and now to do it in my 
home State, I do not know. How long is it before they basically 
get this contract? Is it 1 year or 2 years here?
    Ms. Rhee. Before they have tenure? It is 2 years.
    Senator Ensign. Two years.
    Ms. Rhee. Yes.
    Senator Ensign. First of all, at colleges, it is a lot 
longer than that. In my State it is 1 year. And it is just 
ridiculous that we talk to any high school kid today or their 
parent and ask them, ``Did you have any bad teachers along the 
way?'' Well, it does not take that many bad teachers to ruin a 
kid's education, and we really have to put people on the line, 
and parents have to get involved and take our schools back for 
our kids. That really is--because education is the future for 
our kids. If we want our kids competing in the 21st Century--
and they are not today competing the way that they should, 
especially in the areas of science and math, they are not 
competing in the 21st Century.
    I think that you all have some great ideas, and I followed 
some of the things that you all are doing, and I want to 
applaud you for it and just continue to encourage you to get 
out there and speak, and get parents involved, and take our 
schools back away from the special interests and put them back 
where they belong, and that is, for the kids.
    I am going to continue to fight up here with Senator 
Lieberman, Senator Voinovich, and others that believe in, at 
least, the Opportunity Scholarship Program and giving you more 
flexibility, and if there are other things that can free you 
from some of the bureaucratic rules that it would allow you 
more freedom to change the schools and put the kids first, 
please come to us and please tell us, because we want to work 
with you because it really is just about the kids and their 
future. And that is all we want to do.
    I really did not have a question because you answered 
actually--from some of these other people, you already answered 
some of my questions, but I want to get some of those 
statements on the record. So I thank all of you for what you 
are doing, and let us continue to work to put the kids first.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Ensign.
    Chancellor Rhee, do you have a further response to Senator 
Ensign?
    Ms. Rhee. Well, just that your sentiments are exactly what 
we are trying to push for in the city, and one of the, I think, 
belief structures that exist right now, not just in D.C. Public 
Schools, but in public school systems across the country, is 
this belief that once you have tenure, you have a job for life. 
And in order to terminate a teacher, you have to show that 
person has done some incredible malfeasance. And that is 
because jobs are considered a right. I think we have to change 
that paradigm so that we begin to think not just do no harm, 
but that you actually have to show positive progress with your 
kids to have the privilege of being able to teach them. So we 
have to move the mind-set to it is a privilege to teach kids, 
away from you have a right to a job. And that is going to be a 
long road and it is going to be a hard-fought road to try to 
change and see that mind-set shift.
    Senator Akaka. Thank you very much.
    My question is to Deputy Mayor Reinoso. I believe that a 
strategic plan is a necessary map to guide D.C. educational 
reforms. I understand that one of the office's functions is to 
align the strategic plans of other D.C. agencies with D.C. 
education reform goals. However, GAO indicated you could not 
produce a written strategic plan documenting your role in 
achieving this alignment.
    Do you believe that such documentation is important? Do you 
plan to produce a written plan?
    Mr. Reinoso. Thank you for the question, Senator. As I 
mentioned in my statement, our emphasis has been on 
accountability for results and less on collecting plans, which 
is something that the city was quite successful in doing for 
many decades, a series of reform plans but no implementation 
and follow-through in that effort. And so our focus has been to 
ensure that those on the ground doing the heavy lifting, the 
DCPS and the State Superintendent Office, as well as the Office 
of Public Education Facilities Modernization, that they all 
develop detailed plans, engage the community in those plans, 
and then be held accountable for achieving the outcomes that 
they have laid out as their aspirations in those plans. And in 
that process, we have sat ensuring that all of those plans are 
consistent.
    I will say that while I have certainly heard the repeated 
concerns of folks who are looking for a simple, singular 
document that lays out guideposts that can help someone quickly 
take a look at the big picture without having to delve down 
into the details of the individual plans, and we will be, over 
this next year, working to put together some kind of a document 
that summarizes at a high level the direction that we are 
driving towards as a city and including in that some of the 
interagency work that we have been engaged in in support of the 
schools.
    I want, though, to continue to caution folks from 
overemphasizing the importance of those plans. I myself come 
from the private sector. I have a MBA and have helped launch a 
number of organizations, businesses, and nonprofits, as well as 
help turn around underperforming businesses. And what is most 
important is really the execution plans and not these high-
level strategic plans. And, in fact, there is research that 
suggests that companies that spend too much time refining high-
level strategic plans at the expense of measuring and holding 
managers accountable for actual implementation perform less 
well than entrepreneurial businesses that may not have these 
slick, glossy strategic plans.
    And so we are trying to bring and maintain that focus on 
the implementation, but I have heard the repeated requests for 
some kind of document that can serve as a guidepost, and we 
will be working on such a document over the coming year.
    Senator Akaka. Thank you. Ms. Briggs, I understand that you 
need good data to evaluate the effect of initiatives. Thus, the 
Statewide Longitudinal Education Data system is important to 
the District's goals of accountability, transparency, and data-
driven decisionmaking. I also understand that the development 
of the SLED system is behind schedule.
    Why is this key project delayed and when is it expected to 
be completed?
    Ms. Briggs. Thank you for that question, Chairman. It is 
actually an important tool, for it is the repository for 
student achievement data that spans not only DCPS but the 90-
something charter schools we have in the city as well. And so 
it is a good source of information as our students do not land 
in DCPS and maybe stay their entire career, they shift back and 
forth or start in a charter and end up in DCPS and move around. 
So this will be a really informative tool for us to make sure 
that we know how well students are progressing throughout the 
city.
    You are right, it is behind schedule. Some of the original 
scheduling plans I would say were overly aggressive, and so we 
are kind of looking at the plans that were put in place and 
trying to reformulate those to make sure the next plan that 
comes out for it, we can hit those targets, execute well.
    That said, we have done--some aspects of the SLED System 
are already up and running, and that would be kind of the 
foundation piece of it, which is the Uniform Student 
Identifier. So being able to say which student is which student 
is a really key piece of that, and that part has been launched, 
and we are working through making sure that data are good and 
clean and accurate.
    So I cannot give you a date yet, but we are working on it.
    Senator Akaka. Mr. Reinoso, I understand that your office 
uses pilot programs to test solutions to problems affecting 
education results. How are you documenting successes and 
challenges with these pilot programs? And what accountability 
measures have you established?
    Mr. Reinoso. So with regard to the pilot programs, we have 
contracted for an independent evaluator that is doing annual 
reviews of the implementation of those programs, and so that is 
how we have this independent external evaluation that is 
happening. The first evaluation, which only captured a partial 
year, was positive in its assessment of our progress, but we 
will continue to look to that external evaluation for an 
independent assessment of the impact of these programs.
    In addition, of course, we will do our own calculations in 
terms of what impact or effect we can measure resulting from 
these programs as we work with agencies to determine whether or 
not to continue these as pilots.
    In any kind of investment like this, some projects succeed 
and others fail. We want to be hard-nosed about admitting which 
projects have failed and pull funding from those projects. We 
do not expect to find success in every investment we make, but 
we do think that on the whole it will allow us to gain momentum 
in some areas that otherwise we would be unable to gain. And so 
that is that piece.
    Within the greater context of my office, I should say first 
that I have a very small office in terms of total staff, and 
then within my office directly each analyst focuses on a 
cluster of issues, and they prepare through the ePerformance 
plan, which Ms. Briggs alluded to in her testimony, annual 
targets, and those targets then roll up to our targets as an 
office on the whole.
    Each year we review those targets as part of the budget-
making process and remove metrics that may no longer be 
relevant, replace them with other metrics as we make progress 
against certain issues so that we are constantly refreshing 
those metrics for the office and ensuring that in turn the 
individual staff's performance plans are aligned with those new 
metrics. And so that is part of the new fiscal year, so this 
coming fiscal year we will have a new set of metrics as well as 
refreshed individual staff level performance plans that align 
with those metrics.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. The District's dropout rate is less than 
50 percent, and it is a tragedy in the country that 50 percent 
of the kids in the urban districts are dropping out of school.
    We have talked about teachers and what you are trying to do 
there, if I heard your testimony right. How many principals 
have you changed since 2007?
    Ms. Rhee. In the last school year, we changed about 49 of 
the principals in the District. This year, though we do not 
have a final count, it will probably be somewhere between 22 
and 28.
    Senator Voinovich. How many schools do you have?
    Ms. Rhee. We have 123 schools.
    Senator Voinovich. So you have really done some changing. I 
know when we talked several years ago about how to help the 
District, and the private sector. Have you increased the pay 
for the principals so that you could attract better people? Or 
how has that worked?
    Ms. Rhee. We are currently negotiating a new contract with 
the principals union, and what we are hoping at this point we 
can include is, obviously, a significant salary bump, but also 
a significant pay-for-performance structure as well.
    Senator Voinovich. So you have more flexibility with the 
principals union than you do with the other union?
    Ms. Rhee. We will come to a resolution on the contract with 
the principals union in a much----
    Senator Voinovich. But you have been able to move people 
around, which is----
    Ms. Rhee. Yes.
    Senator Voinovich. But you have had to move them from other 
places. In other words, you moved them to some other school.
    Ms. Rhee. No.
    Senator Voinovich. What happened to them? Did they go back 
in the classroom or something?
    Ms. Rhee. The principals are on a different contract, and 
if we find a principal is not meeting expectations, then we can 
remove them from the District. Some of our principals, have 
retreat rights and that sort of thing. But we have been 
successful, I think, in ensuring that for those principals who 
are not meeting expectations, they are not being moved to other 
schools in that position.
    Senator Voinovich. What happens to them?
    Ms. Rhee. I think it depends. The vast majority of them 
have left the school district.
    Senator Voinovich. Next, parents. I know that the College 
Access Program (CAP) program has got counselors in the schools. 
Tell us a little bit about CAP and the Gates Foundation and how 
they are helping in terms of this dropout rate, because the 
real issue here is the intervention early enough to identify 
where the kid is and spend time with the parent or whoever is 
taking care of it. Can you tell us a little bit about what are 
you doing with these private sector dollars to help deal with 
the dropout rate? Or are those dollars spent on something else?
    Ms. Rhee. Sure. So I will give you a little context on 
this, but I do want to sort of point out the fact that this 
initiative was well underway by the time I got here, so it is 
something that the community had for a long time seen as a 
significant need.
    One of the statistics that was driving that reform effort 
was the fact that they found that of the ninth graders who 
begin high school in D.C. public schools, only 9 percent of 
them graduate from college within 5 years. And I think that 
across the city, overall, there was just this huge outcry, 
saying, ``What is happening to our kids? Why aren't more of 
them heading towards college? What are the barriers? And then 
how do we collectively as a city commit to significantly 
changing that circumstance?''
    To that end, a number of things happened. The D.C. TAG 
program is certainly one that provides more affordable college 
tuition to D.C. residents. There are several scholarship 
programs.
    Senator Voinovich. The D.C. CAP is $2,500 for eligible 
kids? Is that it, over and above TAG?
    Ms. Rhee. So there are several different programs. There is 
the D.C. CAP program. There are also other scholarship programs 
that provide up to $2,500 per year for a student's tuition. So 
there are actually multiple opportunities for D.C. public 
school kids to be able to access additional dollars. That was 
one piece of it, and the Gates Foundation was a big supporter 
of making sure that those scholarship dollars were there so 
that finances were not the prohibiting factor for our kids 
going to school.
    Another component----
    Senator Voinovich. They have allocated, what, $125 million 
over 10 years?
    Ms. Rhee. Over $100 million, correct.
    The other component of the program, though, that they saw 
was necessary was not just to provide scholarships once 
students were able to gain entrance into college, but good 
college counseling so that children understood beginning from 
their freshman year what were the necessary steps that would 
have to be taken in order to gain entry into a 4-year college. 
So part of the D.C. CAP program actually puts college 
counselors in every single one of our high schools who work 
individually with children and families to make sure that all 
the proper tests are taken, that the applications are filled 
out, that the financial aid forms are submitted, and then 
people get training in that over the course of their 4-year 
career in our high schools.
    Senator Voinovich. And that has had a real effect? In other 
words, the parents have been brought in and they talk about it, 
and so that the youngster has an opportunity to know that if 
they do well in school and stay in school that they can go on 
to college if they work hard.
    Ms. Rhee. Absolutely. I think if you go out to any of our 
high schools and talk to the students, they will all tell you 
that they know exactly who the D.C. CAP counselor is, that 
those people are incredibly proactive in terms of, getting them 
out of the hallway, bringing them into their offices, and 
making sure that they are very much staying on top of 
everything that they need to do to be able to put themselves in 
a position where they could apply to and be accepted into a 4-
year college.
    Senator Voinovich. I think many recall the Washington Post 
investigative report on the infrastructure of the District 
schools. What plans are in place to make the improvements? And 
how is the $148 million in stimulus money going to be utilized 
as part of this whole program? And, by the way, does the $148 
million go to the Superintendent and then you divvy it up? Why 
don't you tell me about that.
    Ms. Rhee. So you mentioned earlier the initiative that Ohio 
took on. I was living in Toledo at the time, and I can attest 
to the fact that when the State made that commitment, it really 
set a precedent across, citizens everywhere saying, OK, we know 
now that we are prioritizing education in a different way by 
the State taking the lead on this. And I think that the Mayor 
has worked with the council to ensure that the same kind of 
initiative is being taken through our Master Facility Plan.
    We inherited a Master Facility Plan that had the 
modernization and renovations of all of the District schools 
spread out over an extraordinarily long period of time, and so 
there were some schools that were not going to be able to be 
modernized until, 14, 15, 16 years out.
    What the Mayor did, I think very smartly, in creating the 
new governance legislation was to create the Office of Public 
Education Facility Management and to hire somebody who is a 
facilities guy to lead that department. It has been absolutely 
astonishing. I think if you ask any resident of D.C. to 
quantify it, qualitatively tell you the difference in the 
momentum that has been seen over the last 2 years in 
overhauling the infrastructure and the facilities in the 
District, it has been significant.
    What Alan Lew has done is to collapse the plan into a 5-
year plan because what we do not want to do is have families 
waiting forever to see their schools modernized. So over a 5-
year period, we will ensure that every school in the District 
is modernized and renovated to meet our quality standards, and 
that modernization and renovation will start with what we call 
Phase I modernization, which is making sure that the classroom 
in every single school, which is where the children spend the 
vast majority of their time, are brought up to code, where we 
do not have to worry about air conditioning and heating issues 
and that sort of thing. And he has made a tremendous amount of 
progress. I will let the State Superintendent talk a little bit 
about the stimulus funds.
    Ms. Briggs. So the three main pieces--there are a number of 
programs that come through the stimulus, but the three big ones 
are--there is the Title I formula and then the Individuals With 
Disabilities Act (IDEA) Part B for special education. Both of 
those are formula grants that we have received at the State 
agency and have distributed the preliminary allocations to not 
only DCPS but our other 57 charter school districts. And so 
they have the initial sort of numbers that they will get for 
that.
    And then with the State fiscal fund, we are the fiscal 
agent for this program, which is essentially under the 
governor. Our Mayor gets to distribute. Most of those funds are 
going to also be going to schools through the elementary--
variously through the student funding formula or through the 
Title I formula.
    The Office of the State Superintendent is going to be 
having a summit essentially later in the summer
    Senator Voinovich. Let me just ask you this because I am 
running out of time, and I will try to make it quicker. The 
$148 million, that is money for shovel-ready improvements in 
the classroom and you are folding it in on top of this master 
plan that Mr. Lew is doing? How is that working?
    Ms. Briggs. These funds are actually not for capital 
improvements. They are going to be--I think most districts will 
probably choose to use them for instructional and capacity-
building efforts. That said, they do have that option--the 
charter schools do, anyway, and I do not think DCPS is going to 
be using----
    Senator Voinovich. OK. So the 140 is not for 
infrastructure. It is for other programs that the district will 
decide on what they want to do with it.
    Ms. Briggs. Yes, and some of them could choose to use them 
that way, but I do not think we know that yet.
    Senator Voinovich. Senator Akaka, thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. 
Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. Ms. Rhee, do you 
have a contract or do you serve at the Mayor's pleasure?
    Ms. Rhee. I serve at the pleasure of the Mayor.
    Senator Burris. OK. So you do not have a contract.
    Ms. Rhee. Well, I do have a contract, but in the contract 
it says that I serve at the pleasure of the Mayor.
    Senator Burris. OK. That is interesting. And who has the 
responsibility of certifying teachers in the District?
    Ms. Rhee. Teacher certification happens through the Office 
of the State Superintendent of Education.
    Senator Burris. That is you, Ms. Briggs?
    Ms. Briggs. Yes. But that effort only applies to the DCPS 
teachers. Charter school teachers do not have to have the 
certification in the same way that the DCPS teachers do.
    Senator Burris. Charter teachers are not certified--who 
certified charter teachers?
    Ms. Briggs. They are not required to be certified in the 
same way that----
    Senator Burris. Same way? How are they certified?
    Ms. Briggs. They do not have to have a State certification.
    Senator Burris. Well, thank you. That was easy to say. They 
do not have a State--can you say that? They are not certified.
    Ms. Briggs. I am sure some of them are, but they are not 
required to be certified.
    Senator Burris. They are not required to be certified. OK. 
Now, who does a principal of a school report to?
    Ms. Rhee. The principals of our schools report to the 
instructional superintendents. We have six instructional 
superintendents in the District.
    Senator Burris. And they report to you?
    Ms. Rhee. The instructional superintendents report to the 
Chief Academic Officer.
    Senator Burris. And who has to sign off on the firing of a 
teacher?
    Ms. Rhee. When a teacher is terminated, there are multiple 
parties that are involved: The principal, the instructional 
superintendent, and also central office human resources (HR) 
staff.
    Senator Burris. So the instructional superintendent is also 
responsible for the curriculum for the students? Who is 
responsible for the curriculum that goes into the classroom?
    Ms. Rhee. The Teaching and Learning Department is the 
department that oversees approving certain curricula standards, 
pacing guides, etc., to ensure that those are being executed at 
the school level.
    Senator Burris. And do you all have in your classrooms 
anything classified as a teacher's aide or is it just a teacher 
in the classroom?
    Ms. Rhee. We do have paraprofessionals, yes.
    Senator Burris. Paraprofessionals. And what are their 
responsibilities?
    Ms. Rhee. It depends. A large number of our 
paraprofessionals are dedicated aides who are assigned to help 
our special education students. The other place where we have a 
large number of paraprofessionals is in our early grades, in 
our pre-K and K classrooms.
    Senator Burris. And you are in the process now of 
negotiating your union contract, I understand----
    Ms. Rhee. With the teachers?
    Senator Burris. Yes, with the teachers.
    Ms. Rhee. Yes.
    Senator Burris. That my former law school dean, Kurt 
Schmoke, is in the process of mediating this?
    Ms. Rhee. Yes, he is.
    Senator Burris. Well, you all have a great mediator.
    Ms. Rhee. Yes, we do.
    Senator Burris. I do not know how the problem is going to 
come out, but that is certainly a great dean of my law school.
    Now, under this new structure, D.C. Public School system 
has been placed under for 2 years now--right? You got it 
together.
    Ms. Rhee. Right.
    Senator Burris. How does the new structure enable the D.C. 
Public Schools to make improvements that have been done so far? 
What improvements can you say that you have been able to do in 
a very short process so far, improvements in your system? And 
how accurate was the GAO report in assessing the progress made 
by the schools so far? How accurate was that report?
    Ms. Rhee. So it is interesting. In your earlier round of 
questioning, you were saying there is so much bureaucracy, and 
though I completely understand that point of view, I would say 
that there is less bureaucracy now than there used to be.
    Senator Burris. There is less under this system----
    Ms. Rhee. That is right.
    Senator Burris [continuing]. Than there was under the old 
system?
    Ms. Rhee. Yes.
    Senator Burris. OK, which means that is the reason why it 
was really a mess.
    Ms. Rhee. Well, we still certainly have our challenges and 
will continue to look at how we can streamline structure. We do 
believe that we are in a much better position now and that 
there is less bureaucracy now. And because I am able to report 
directly to the Mayor--and the Mayor meets with the education-
related principals, so the three of us and Director Lew, who 
oversees the Public Education Facilities and Modernization 
Department, we are very much aligned in what we do. And so this 
structure allows us to move in a much more aggressive and agile 
way, I think, than the District was able to do----
    Senator Burris. So how accurate was the GAO report?
    Ms. Rhee. In terms of the accuracy of the GAO report, I 
certainly think that on some measures they were absolutely 
correct in outlining some of the significant accomplishments we 
have made, and also identifying some of the things that we 
should continue to work on.
    We just today had access to the final report, so I have not 
been able to look at that. But in looking at some of the 
documents that I see, I do think that there are some 
inaccuracies in the report. And my understanding is that we 
will have the chance to respond to the report and that we will 
have our response go on record. And so I think it will be 
important for us to clarify some of those things.
    Senator Burris. And so what are some of the initiatives now 
that you are looking at that you would like to tell us in a 
very short period of time that you plan to try to implement to 
improve that situation? What are some of your initiatives that 
you have on the drawing board that you hope to initiate?
    Ms. Rhee. Some of them we have talked about, such as the 
instructional coaches. I would say another----
    Senator Burris. That is what I want to get back to. You 
mean instructional coaches for teachers.
    Ms. Rhee. Correct. We have instructional coaches, full-time 
instructional coaches in every single building whose 
responsibility it is to professionally develop the teachers in 
that building.
    Senator Burris. OK. That goes back to my question about the 
qualifications of teachers and who certifies teachers. So you 
are hiring teachers that once you hire them, they are going to 
have to be taught how to teach. Is that what you are saying?
    Ms. Rhee. No, but any professional, regardless of what 
career you are in, just because you are in that role does not 
mean you cannot grow your skills and your knowledge. Every 
professional wants to continue to improve as they are in their 
role, and that is the same expectation that we have of 
teachers. The minute they walk in the classroom, though you may 
be certified, you have a continuous cycle of improvement and 
professional development that you want to go through. And so we 
have instructional coaches at every school to ensure that 
particularly focused on new and struggling teachers, that we 
can continue to build their skills and knowledge base.
    Senator Burris. Mr. Chairman, I see my time is up. I do not 
know whether or not there is going to be a third round. Well, 
let me ask this last question.
    Now, if I brought all of today's witnesses back to this 
table 2 years from now, how would the assessment differ from 
what we are hearing today?
    Ms. Rhee. Well, I believe that 2 years from now we will be 
able to show even increased results that are building on the 
first 2 years that we have seen. And I think the reform efforts 
and the initiatives will have gone deeper into the system. So 
over the first 2 years, we would focus a lot on the systemic 
issues and the operational issues that we are stopping schools 
from getting the resources that they needed to be effective. 
And I think that what you will see over the next 2 years is 
that those reforms are much more at the classroom level with 
our new Teaching and Learning Framework, with the new teacher 
evaluation tool, with the new academic interventions that we 
are putting in place for struggling students.
    Senator Burris. I would hope that you would say you hope to 
see that the students have highly improved.
    Ms. Rhee. That is what I started with saying, that you 
would see significant----
    Senator Burris. Well, I did not hear that. We want to see 
that the students come out of the public schools in the 
District of Columbia 2 years from now are highly improved based 
on the teachers that you have hired and this bureaucracy that 
has been created. Is that what you want to see 2 years from 
now?
    Ms. Rhee. Absolutely.
    Senator Burris. Thank you. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burris.
    I have a question for Ms. Ashby. Your report emphasized the 
importance of strategic plans and linking them to performance. 
As you heard, I asked the Deputy Mayor about strategic 
planning. Do you agree with Mr. Reinoso's response about 
strategic plans?
    Ms. Ashby. Well, things have certainly come a long ways 
since I last testified before this Subcommittee in March 2008. 
Now there is what we will call a statewide plan--recognizing 
that the District of Columbia is not a State, but there is a 
districtwide strategic plan, and it does have various 
components, but you do have to work a bit to figure out just 
what it is. But it does exist.
    The point we made in the report with regard to alignment 
has to do with the fact that we were told that the DCPS and the 
State Superintendent's plans are aligned, and we asked for 
documentation to support that, and that is the documentation we 
did not get.
    In your response, Mr. Reinoso, however, although you have a 
strategic plan, I am hearing some of the same rhetoric I did 
hear in March 2008 that downplays the importance of strategic 
planning, and the belief that if you have a plan, it just sits 
on the shelf, or if you have a plan, you are not doing other 
things, and that what we are doing is just talking about a plan 
for the sake of having a plan. And as I said in March 2008, 
that is not the case. A plan is a useful tool if used properly; 
if developed and used properly.
    For example, it is a tool for communicating with 
stakeholders, and we made that point in our current report, as 
we did almost 18 months ago, that it is important to have 
stakeholders involved early in making key decisions and in 
developing key initiatives.
    One way of doing that is having the overall plan available 
so that people who are interested in knowing what is going to 
happen, know what is coming up. You need outreach to the 
community. But you also need to have structures in place that 
ensure you are going to incorporate stakeholders. Regardless of 
time constraints or whatever else, you have things in place, 
structures in place that make sure you do certain things.
    And I will bring this around to the comment--not directly 
answering your question, Mr. Chairman, but there have been a 
couple of references stating that there are inaccuracies or 
tone problems in our report. Within GAO, we have many 
structures that ensure that our reports are balanced, that they 
are objective, that they are based on data. I am proud to say 
that I stand behind this report and every report I have been 
involved in at GAO.
    In order to be balanced, there is going to be some negative 
along with the positive. We think that a lot of things have 
been accomplished. We think that there have been improvements 
in the D.C. public schools. We know there is a lot to be done, 
as has been recognized here. But there are also areas where 
there were some false steps. And I think if you look overall at 
our recommendations about stakeholders, strategic planning, you 
will see that they are linked.
    Some of the false steps came about because the constituents 
involved were not asked to provide input early on, and then 
later on down the road, things did not go well, and then their 
views might have been taken into consideration.
    So in terms of our work--and you know this, Mr. Chairman, 
that generally I do not need to defend our work, but since I 
have not said anything, I have not been asked anything today, 
and there have been a couple of comments about our report, I 
thought I needed to say that.
    It is real important that stakeholders be involved, that 
there be strategic plans, there be a road map, and that the 
various tools be implemented. Thank you.
    Senator Akaka. Well, thank you very much for that. I was 
also interested in knowing whether you had any recommendations 
about what DCPS can do to make it easier for all stakeholders 
to evaluate the District's progress on education reform.
    Ms. Ashby. Well, in terms of evaluating progress, it is 
going to take time. There have been improvements in 
standardized test scores, as has been discussed here. But it is 
difficult to link certainly any particular initiative or any 
group of initiatives to that improvement. That is not to say 
that some of those initiatives have not been somewhat 
responsible for some of the improvement. So that part is 
difficult. But you have to have transparency and openness. 
Those elements are part of accountability. You cannot be 
accountable if people do not know what you are doing or what 
you are supposed to be doing. So that is one way that the 
constituents in the District of Columbia can be more assured 
that things are going right and the best things are being done 
and progress is being made.
    Senator Akaka. Well, thank you very much for your 
responses.
    I have a final question for our District witnesses on the 
panel. We are not far from the start of the 2009-2010 school 
year. We are looking forward to that, especially because so 
many things have happened in the past 2 years. Without 
question, you have made progress, but we know that there are so 
many other difficult issues that we need to deal with here. 
What are your top three priorities as we move forward in this 
whole effort? Chancellor Rhee, would you please begin?
    Ms. Rhee. Sure. The first priority that the District has is 
a successful rollout of the new Teaching and Learning 
Framework, as I mentioned before. This framework will be 
introduced this summer. The teachers will be trained on it 
ongoing through the course of this year, and we think it will 
have a substantial impact overall in terms of our student 
achievement levels.
    The second priority is the implementation, the effective 
implementation of our new teacher evaluation model. It is 
something that teachers have long been clamoring for the 
improvement of, and I think we have made some significant 
modifications that are going to improve that greatly.
    The third, I would say, is the focus on building our school 
portfolio so that we have programs and initiatives happening in 
our public school buildings, which are on par with things that 
are compelling in private and charter schools across the city. 
And we are doing that through increases in dual language 
immersion programs and arts integration programs and STEM 
programs, which is science, technology, engineering, and math. 
So we are excited about that, and a move more towards some of 
our higher-performing schools, having increased autonomy which 
would mirror the autonomy that some of our charter schools 
have.
    I also want to make a final statement. Some of the 
questions that I got today from Senators focused a lot on poor-
performing teachers, and I certainly wanted to address those 
questions, but I would be remiss if I did not talk about the 
thousands of teachers in the District who are doing heroic work 
for our children every day. And I think that it is important 
not to paint a picture where we do not believe that incredibly 
hard work is happening. Our teachers have worked unbelievably 
hard over the last 2 years. The gains that we have seen with 
students would not have been possible without their dedication 
and commitment. Many of them are working in circumstances that 
are incredibly challenging and difficult with a lack of 
resources for many of them. Lots of them serve as the only 
positive adult role model that some of our children see every 
day. And so I want to make sure that we recognize those 
teachers and the work that they do as well.
    Senator Akaka. Mr. Reinoso.
    Mr. Reinoso. Thank you, Senator. Obviously, our overarching 
goal is continued improvement in student achievement. From 
where I sit, there are some key levers that we hope to make 
progress on in the coming year. We would like to see even 
better, tighter coordination between the agencies that support 
youth and families around education issues.
    One of the measures there will be the successful completion 
of some of our pilot programs and the assumption of those 
responsibilities moving forward through new home agencies.
    The State office reports through me, and the highest 
priority there is that we continue reform efforts so that we 
can be removed from our high-risk designation.
    Then the other education agency that reports through me is 
the facilities, and we hope to see that we stay on track and, 
where possible, exceed our expectations for modernizing 
classrooms so that we stay on pace and can provide the kind of 
quality learning environments that we need in order to educate 
our children and provide the best opportunities for our 
teachers to achieve all that they are capable of.
    Senator Voinovich [presiding]. Senator Akaka has to go to 
the floor, so I am going to ask a few more questions and give 
Senator Burris a chance to ask some, and then we will wrap it 
up.
    One of the things that many of the most up-to-date school 
systems are doing is the use of technology, and computers. What 
are you doing to make sure that the students are computer 
literate? And are you using technology to help a teacher 
educate children? I know when I was governor, we wired every 
classroom in the State for voice, video, and data, and realized 
that if the kids are not computer literate, they are gone.
    What are you doing in that regard and where do you stand?
    Ms. Rhee. One of the best examples of having the Deputy 
Mayor's office coordinating amongst agencies has benefited the 
District of Columbia public schools. The Deputy Mayor's office 
has ensured that what we call the Office of the Chief 
Technology Officer (OCTO), of the city, has taken a significant 
role in ensuring that we are technologically up-to-date in our 
schools. We have actually outsourced our technology, in 
essence, to OCTO, and they have done everything from ensuring 
that schools are wired, that we are ordering the appropriate 
materials so that we have computers in every classroom. We had 
a significant rollout of computers last year to ensure that 
every teacher had access to a computer, and now we are actually 
doing that for computer labs in classrooms across the District.
    Senator Voinovich. What are you doing for the teachers?
    Ms. Rhee. There are a few things that we are doing for 
teachers. First of all, we are trying to enable them to make 
their jobs easier in some ways through technology, which means 
that some of the things that teachers used to have to do by 
hand in terms of attendance and grades and that sort of thing, 
we are putting those things online.
    We also have had a number of courses for teachers to ensure 
that they can become more technologically savvy and computer 
literate so that they can work to ensure that they are 
integrating technology within their teaching repertoire.
    We have a number of teachers right now who are piloting the 
use of smart boards in their classrooms, and that has been a 
pretty significant effort in a number of our schools.
    You asked about how we are doing, how we are using 
technology to increase student learning as well. One of the 
major efforts that we have taken on is ensuring that for our 
children, our high school children who were not on track to 
graduate, that we had aggressive credit recovery options for 
them, so that even if they have not received the credits that 
they need so far, that they can actually still graduate on 
time, and much of that is being done through online courses.
    Senator Voinovich. So you are on your way with that.
    Ms. Rhee. We are on our way. We are still not anywhere 
close to where we need to be. Because so many of our facilities 
are not up to par in terms of their electrical systems and that 
sort of thing, we are not able to bring the technological 
resources into every one of our schools that we would like. But 
as Director Lew moves through the Master Facility Plan over the 
next 5 years, the technology component is a significant part of 
that.
    Senator Voinovich. One of these days I would like to come 
out and visit a couple of your schools. I have not done that 
yet.
    Ms. Rhee. We would love to have you come out.
    Senator Voinovich. The issue of the cost per pupil 
education, $15,000, and there are always a lot of comments 
about it is the most expensive and ranked very low at the 
bottom, second from the bottom. Have you published a reason why 
your costs are so much higher than some other places?
    Ms. Rhee. Well, it certainly is true that if you look at 
our overall costs across the city in terms of public education 
and the number of students that we have, we rank up there in 
terms of per pupil expenditures. I think a number of things 
drive that.
    One of the reasons that is pretty widely known is the 
problems that we faced in special education. We spend more than 
$75 million a year on the transportation of a few thousand 
special education children in the system. We spend over $150 
million a year on tuition to non-public placements for special 
education students because we cannot serve them well within the 
traditional public schools.
    So a lot of these are some of the factors that drive up our 
cost.
    Senator Voinovich. In other words, these are special things 
that you have got costs, but relatively speaking, I would think 
that a lot of other districts, urban districts, would have the 
same problems.
    Ms. Rhee. Well, I would say that our problems are out of 
whack, and that is part of the issue. In most high-functioning 
districts, only 2 percent of the special education population 
actually go to non-public placements. For us, it is a much more 
significant number. We have more due process hearings in the 
District of Columbia than in all of the other States combined, 
so that gives you a sense----
    Senator Voinovich. Why is that?
    Ms. Rhee. I will be honest in saying that historically it 
has been the complete and utter dysfunction of the District's 
Special Education Department, and so we are in the midst of 
fixing that. I will say that over the past year we have made 
much more significant progress than the District has ever seen 
before. We inherited a backlog of several thousand overdue 
hearing officer decisions. We have brought that down almost to 
the single digits over the course of the past year, and we have 
many fewer complaints and hearing officer decisions being 
rendered over the last year than the District has seen in a 
long time.
    So we are heading in the right direction, but we still 
cannot say that we believe every dollar that is being spent in 
the District on public education is being utilized in the most 
efficient way. I think we have a plan for how we are going to 
make sure over time that happens. But we still have a number of 
places in which we can point very specifically to 
inefficiencies and to expenditures that are not serving the 
overall good of the kids.
    Senator Voinovich. I would suggest just for the record, 
because it constantly comes up, that you put something out and 
get it to the Members of Congress and say, this is what it is 
and here is why, it is where it is, and we are trying to work 
on some of these things, because the impression is that, it is 
just, well, that is the way it is, it is Washington. And I 
think that would be very helpful to you.
    The other thing is that it was reported that the charter 
schools--it was on my birthday. They missed a $103 million 
payment due to its 60 charter schools. That was in the 
Washington Post. Is that an indication that you have got 
problems with your financial management system? Or what caused 
that?
    Mr. Reinoso. The issue there was that because the budget 
was out--not balanced due to that we are in the middle of 
resubmitting a budget aligned with the latest revenue 
projections, the city was unable to draw down all of the funds 
immediately. And so a request went out initially in 
coordination with the Public Charter Board to do $57 million of 
the $100-plus million at once, and that money has gone out and 
allocated per the Charter Board's decisions first to the 
weakest, those in the most precarious financial situation.
    We did submit a request to draw down the additional funds, 
and that will be out to the schools shortly. So all of the 
funding will be in place, again, a little bit behind schedule, 
but in time to avert any kind of crisis for their management.
    Senator Voinovich. Well, I am sure that some of the people 
that were relying on the check maybe had a little crisis. But 
the bottom line is that you are saying to me that it is not the 
system, it was a question of the dollars were not there, and 
that is what delayed the----
    Mr. Reinoso. It was a question of whether the city could 
move forward with an allocation without a balanced budget in 
place, and because we were caught in the middle of having 
submitted a budget that was balanced, but then having received 
from the Office of the Chief Financial Officer figures that 
suggested that the city's budget was no longer in balance, and 
then given that situation, could the city or should the city do 
the payment all at once or in two tranches. And so we have now 
put everyone in place to move out the entire funding to the 
schools.
    Senator Voinovich. My concern was it is that, not a screw-
up in the----
    Mr. Reinoso. No. That is right.
    Senator Voinovich [continuing]. Financial system.
    Mr. Reinoso. No.
    Senator Voinovich. One of the areas that I am very 
concerned about--and, again, it gets back to my days when I was 
governor--is early childhood education, and I would be 
interested in knowing what is the District doing in that 
regard. And are you using any of your Title I money for early 
childhood education, or is it all going from K-12?
    Ms. Briggs. One of the initiatives that the city has 
undergoing that is actually pretty exciting is the pre-K 
effort, and it funds not only pre-K classrooms in DCPS but also 
in charter schools and in community-based organizations. Last 
year, I believe there were around 23, 24 classrooms that were 
supported in this way, and we are hoping to expand that in the 
next year moving forward.
    Senator Voinovich. Does the District provide--and I should 
know this, and I do not--full-day kindergarten?
    Mr. Reinoso. Yes.
    Ms. Rhee. Yes, we do.
    Senator Voinovich. And how about pre-school? What 
percentage of the kids have an opportunity for pre-school?
    Ms. Briggs. I do not know that number offhand, but we have 
done a capacity audit and also a quality assessment of our pre-
K programs, I do not know. We can get that for you.
    Senator Voinovich. How about Head Start? Where are you in 
terms of your Head Start program? And is the District spending 
any money on Head Start, or is it all Federal money?
    Ms. Briggs. We spend mostly Federal money--it is not----
    Mr. Reinoso. There is a local match.
    Ms. Briggs. There is a local match. Both Federal and local 
money on Head Start.
    Senator Voinovich. How many students do you have in the 
Head Start program?
    Ms. Briggs. I do not know that number off the top of my 
head. We can get it for you.
    Senator Voinovich. I would like to know what the percentage 
is.
    Ms. Briggs. Sure.
    Senator Voinovich. I think one of the areas that we really 
are failing in--and the Title I money, are you using any of 
that Title I money for pre-school?
    Ms. Briggs. Schools can use their Title I money to support 
pre-K and early childhood efforts.
    Senator Voinovich. OK. I would like a report on what you 
are doing in terms of early childhood, where you stand in terms 
of your Head Start program.
    Ms. Briggs. Yes.\1\
---------------------------------------------------------------------------
    \1\ The get-backs from Ms. Briggs appears in the Appendix on page 
151.
---------------------------------------------------------------------------
    [The information follows:]
    Senator Voinovich. As I say, Ms. Rhee, I tell some of the 
superintendents that by the time the kids get to Title I, it is 
too late for them. While I was Chairman of the National 
Governors Association, we had a big effort on early childhood 
education, and the word was getting out if the kids do not get 
that kind of support early in life.
    Ms. Rhee. It is.
    Senator Voinovich. And I would say to the superintendents, 
you can use Title I money for pre-school. They said, Well, I 
got to have the money from Title I because that is the way I 
help subsidize the other money that I have in the system, and 
that is what we are using it for.
    Ms. Rhee. We have significantly increased the number of 
pre-K seats that are available to families for this coming 
school year, and I will also add that we are using some of our 
IDEA additional dollars towards an early childhood assessment 
center that will be put in place to be able to identify 
children at 2 and 3 years old who have special needs so that we 
can begin services early and that they are not waiting until 
they come into kindergarten to get those, so that we can ensure 
that they are as ready for school as possible.
    Senator Voinovich. Well, that is going to be interesting 
because I know when the stimulus package came along, I did not 
vote for it, but I did feel that we did have a Federal 
responsibility in IDEA. We have increased it dramatically since 
I have been in the Senate, since 1999, but it is still 
inadequate. And I think it is real important now that we have 
increased it, they all get together with others and say, you 
got it up here, do not cut it back on us because I think that 
is something that is legitimate. It has been an unfunded 
mandate and something that you can argue and say that you 
definitely--it is a Federal responsibility and one that we 
should meet.
    Ms. Rhee. Absolutely.
    Senator Voinovich. I just want to thank you all for being 
here today, and on orders of the Chairman, the meeting is 
adjourned.
    Mr. Reinoso. Thank you.
    Senator Voinovich. And, by the way, the record will be open 
for a week so you may be getting additional questions from me, 
Senator Akaka, and maybe from some other Members of this 
Subcommittee.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 53115.001

[GRAPHIC] [TIFF OMITTED] 53115.002

[GRAPHIC] [TIFF OMITTED] 53115.003

[GRAPHIC] [TIFF OMITTED] 53115.004

[GRAPHIC] [TIFF OMITTED] 53115.005

[GRAPHIC] [TIFF OMITTED] 53115.006

[GRAPHIC] [TIFF OMITTED] 53115.007

[GRAPHIC] [TIFF OMITTED] 53115.008

[GRAPHIC] [TIFF OMITTED] 53115.009

[GRAPHIC] [TIFF OMITTED] 53115.010

[GRAPHIC] [TIFF OMITTED] 53115.011

[GRAPHIC] [TIFF OMITTED] 53115.012

[GRAPHIC] [TIFF OMITTED] 53115.013

[GRAPHIC] [TIFF OMITTED] 53115.014

[GRAPHIC] [TIFF OMITTED] 53115.015

[GRAPHIC] [TIFF OMITTED] 53115.016

[GRAPHIC] [TIFF OMITTED] 53115.017

[GRAPHIC] [TIFF OMITTED] 53115.018

[GRAPHIC] [TIFF OMITTED] 53115.019

[GRAPHIC] [TIFF OMITTED] 53115.020

[GRAPHIC] [TIFF OMITTED] 53115.021

[GRAPHIC] [TIFF OMITTED] 53115.022

[GRAPHIC] [TIFF OMITTED] 53115.023

[GRAPHIC] [TIFF OMITTED] 53115.024

[GRAPHIC] [TIFF OMITTED] 53115.025

[GRAPHIC] [TIFF OMITTED] 53115.026

[GRAPHIC] [TIFF OMITTED] 53115.027

[GRAPHIC] [TIFF OMITTED] 53115.028

[GRAPHIC] [TIFF OMITTED] 53115.029

[GRAPHIC] [TIFF OMITTED] 53115.030

[GRAPHIC] [TIFF OMITTED] 53115.031

[GRAPHIC] [TIFF OMITTED] 53115.032

[GRAPHIC] [TIFF OMITTED] 53115.033

[GRAPHIC] [TIFF OMITTED] 53115.034

[GRAPHIC] [TIFF OMITTED] 53115.035

[GRAPHIC] [TIFF OMITTED] 53115.036

[GRAPHIC] [TIFF OMITTED] 53115.037

[GRAPHIC] [TIFF OMITTED] 53115.038

[GRAPHIC] [TIFF OMITTED] 53115.039

[GRAPHIC] [TIFF OMITTED] 53115.040

[GRAPHIC] [TIFF OMITTED] 53115.041

[GRAPHIC] [TIFF OMITTED] 53115.042

[GRAPHIC] [TIFF OMITTED] 53115.043

[GRAPHIC] [TIFF OMITTED] 53115.044

[GRAPHIC] [TIFF OMITTED] 53115.045

[GRAPHIC] [TIFF OMITTED] 53115.046

[GRAPHIC] [TIFF OMITTED] 53115.047

[GRAPHIC] [TIFF OMITTED] 53115.048

[GRAPHIC] [TIFF OMITTED] 53115.049

[GRAPHIC] [TIFF OMITTED] 53115.050

[GRAPHIC] [TIFF OMITTED] 53115.051

[GRAPHIC] [TIFF OMITTED] 53115.052

[GRAPHIC] [TIFF OMITTED] 53115.053

[GRAPHIC] [TIFF OMITTED] 53115.054

[GRAPHIC] [TIFF OMITTED] 53115.055

[GRAPHIC] [TIFF OMITTED] 53115.056

[GRAPHIC] [TIFF OMITTED] 53115.057

[GRAPHIC] [TIFF OMITTED] 53115.058

[GRAPHIC] [TIFF OMITTED] 53115.059

[GRAPHIC] [TIFF OMITTED] 53115.060

[GRAPHIC] [TIFF OMITTED] 53115.061

[GRAPHIC] [TIFF OMITTED] 53115.062

[GRAPHIC] [TIFF OMITTED] 53115.063

[GRAPHIC] [TIFF OMITTED] 53115.064

[GRAPHIC] [TIFF OMITTED] 53115.065

[GRAPHIC] [TIFF OMITTED] 53115.066

[GRAPHIC] [TIFF OMITTED] 53115.067

[GRAPHIC] [TIFF OMITTED] 53115.068

[GRAPHIC] [TIFF OMITTED] 53115.069

[GRAPHIC] [TIFF OMITTED] 53115.070

[GRAPHIC] [TIFF OMITTED] 53115.071

[GRAPHIC] [TIFF OMITTED] 53115.072

[GRAPHIC] [TIFF OMITTED] 53115.073

[GRAPHIC] [TIFF OMITTED] 53115.074

[GRAPHIC] [TIFF OMITTED] 53115.075

[GRAPHIC] [TIFF OMITTED] 53115.076

[GRAPHIC] [TIFF OMITTED] 53115.077

[GRAPHIC] [TIFF OMITTED] 53115.078

[GRAPHIC] [TIFF OMITTED] 53115.079

[GRAPHIC] [TIFF OMITTED] 53115.080

[GRAPHIC] [TIFF OMITTED] 53115.081

[GRAPHIC] [TIFF OMITTED] 53115.082

[GRAPHIC] [TIFF OMITTED] 53115.083

[GRAPHIC] [TIFF OMITTED] 53115.084

[GRAPHIC] [TIFF OMITTED] 53115.085

[GRAPHIC] [TIFF OMITTED] 53115.086

[GRAPHIC] [TIFF OMITTED] 53115.087

[GRAPHIC] [TIFF OMITTED] 53115.088

[GRAPHIC] [TIFF OMITTED] 53115.089

[GRAPHIC] [TIFF OMITTED] 53115.090

[GRAPHIC] [TIFF OMITTED] 53115.091

[GRAPHIC] [TIFF OMITTED] 53115.092

[GRAPHIC] [TIFF OMITTED] 53115.093

[GRAPHIC] [TIFF OMITTED] 53115.094

[GRAPHIC] [TIFF OMITTED] 53115.095

[GRAPHIC] [TIFF OMITTED] 53115.096

[GRAPHIC] [TIFF OMITTED] 53115.097

[GRAPHIC] [TIFF OMITTED] 53115.098

[GRAPHIC] [TIFF OMITTED] 53115.099

[GRAPHIC] [TIFF OMITTED] 53115.100

[GRAPHIC] [TIFF OMITTED] 53115.101

[GRAPHIC] [TIFF OMITTED] 53115.102

[GRAPHIC] [TIFF OMITTED] 53115.103

[GRAPHIC] [TIFF OMITTED] 53115.104

[GRAPHIC] [TIFF OMITTED] 53115.105

[GRAPHIC] [TIFF OMITTED] 53115.106

[GRAPHIC] [TIFF OMITTED] 53115.107

[GRAPHIC] [TIFF OMITTED] 53115.108

[GRAPHIC] [TIFF OMITTED] 53115.109

[GRAPHIC] [TIFF OMITTED] 53115.110

[GRAPHIC] [TIFF OMITTED] 53115.111

[GRAPHIC] [TIFF OMITTED] 53115.112

                                 <all>

</pre></body></html>
